<html>
<title> - HONORING OUR NATION'S VETERANS: EXAMINING THE VETERANS CEMETERY GRANTS PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    HONORING OUR NATION'S VETERANS:
                    EXAMINING THE VETERANS CEMETERY
                             GRANTS PROGRAM

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2012
                FIELD HEARING HELD IN PRESTON, MINNESOTA

                               __________

                           Serial No. 112-60

                               __________

       Printed for the use of the Committee on Veterans' Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

74-586                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                               __________

                              May 14, 2012

                                 ______

                                                                   Page
Honoring Our Nation's Veterans: Examining the Veterans Cemetery 
  Grants Program.................................................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared statement of Chairman Runyan........................    33
Hon. Timothy J. Walz, Democratic Member..........................     2

                                 ______

                               WITNESSES

Steve O'Connor, Past State Commander, Veterans of Foreign Wars...     5
    Prepared statement of Mr. O'Connor...........................    34
Lucinda Barth, Sergeant, MN Army National Guard Operation Iraqi 
  Freedom and Operations Enduring Freedom........................     5
    Prepared statement of Sergeant Barth.........................    34
Nathan Pike, County Veteran Service Officer Olmsted County.......     6
    Prepared statement of Mr. Pike...............................    35
Chuck Amunrud, Commissioner, Fillmore County.....................    11
    Prepared statement of Mr. Amunrud............................    36
Karen Brown, County Coordinator, Fillmore County.................    12
    Prepared statement of Ms. Brown..............................    37
Jon Martin, Solid Waste Administrator, Fillmore County...........    14
    Prepared statement of Mr. Martin.............................    38
The Honorable Jeremy Miller, Senator, Minnesota Legislature......    19
    Prepared statement of Hon. Miller............................    39
David Swantek, Cemetery Director, Minnesota Department of 
  Veterans Affairs...............................................    20
    Prepared statement of Mr. Swantek............................    39
Glenn Powers, Deputy Under Secretary for Field Programs, National 
  Cemetery Administration, U.S. Department of Veterans Affairs...    25
    Prepared statement of Mr. Powers.............................    41

Accompanied by:

  Joshua de Leon, Director of Veterans Cemetery Grants Service, 
    National Cemetery Administration, U.S. Department of Veterans 
    Affairs......................................................    25

                                 ______

                       SUBMISSIONS FOR THE RECORD

The Honorable Gregory Davids, Representative, Speaker Pro 
  Tempore, Minnesota Legislature.................................    44

 
                    HONORING OUR NATION'S VETERANS:
                    EXAMINING THE VETERANS CEMETERY
                             GRANTS PROGRAM

                              ----------                              


                          MONDAY, MAY 14, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                               Subcommittee on Disability  
                           Assistance and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
the Fillmore County Courthouse Board Room, 101 Fillmore Street 
West, Preston, Minnesota, Hon. Jon Runyan (Chairman of the 
Subcommittee) presiding.
    Present: Representatives Runyan and Walz.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon, everybody. Usually when we hold 
these Subcommittee hearings, we're still in Washington, but 
it's great to be here today. I'm happy to be here with all of 
you in the Fillmore County courthouse in the district of my 
colleague and good friend, Tim Walz. I'd like to personally 
thank you for having me and also attending the field here back 
in my district a few weeks back and everyone else for joining 
us here today.
    Although we are far away from the normal hearing room in 
Washington, D.C. and the Hill and the great cameras of C-SPAN, 
this is still an official Congressional oversight hearing of 
the House Veterans' Affairs Committee, and therefore the 
hearing rules and hearing conduct will apply. Therefore, I will 
respectfully request that everyone be courteous to our 
witnesses and remain silent until the hearing is formally 
adjourned.
    In chairing the Subcommittee on Disability Assistance and 
Memorial Affairs, I've had the opportunity to work on many 
issues that affect our Nation's veterans, whether they are in 
my home district or here in Minnesota or wherever else across 
the Nation.
    From working on these issues, I've learned firsthand that a 
veteran's final resting place is a subject of the utmost 
importance, not just for those who have served our country, but 
also their families and loved ones. As our veterans' population 
continues to age and we wind down from two overseas conflicts, 
the placement of our national and state veterans' cemeteries 
becomes increasingly important.
    Accordingly, we are here today to talk about the Veterans' 
Cemetery Grants Program and the possibility of placing a new 
veterans' cemetery right here in Fillmore County. It is my 
understanding that the need for a cemetery exists and a 
suitable location has already been determined. I look forward 
to hearing more from the citizens of Fillmore County as well as 
the VA in today's testimony.
    It is my hope that by bringing all the parties together 
here today, we can make progress in evaluating the Veterans' 
Cemetery Grants Program and ultimately to serve the needs of 
our veterans as best we can.
    As I am sure many of you are aware, cemeteries established 
under the grant program must conform to the standards and 
guidelines pertaining to site selection, planning, and 
construction as prescribed by the VA. These cemeteries must be 
operated solely for the burial service of members who died on 
active duty, veterans and their eligible spouses and dependent 
children. Further, any cemetery assisted by a VA grant must be 
maintained and operated according to the operational standards 
and measures of the National Cemetery Administration.
    So we are here today to examine this process, not from afar 
in Washington, but right here in Fillmore County, where this 
program has a chance to make a direct impact.
    Currently there are approximately 45,000 veterans in 
southern Minnesota who could be eligible for burial in a 
veterans' cemetery. It is my understanding that the VA is aware 
of this need for a veterans' cemetery in this area, and I hope 
through our efforts here today we are able to accomplish this 
goal of ensuring that this need is fulfilled.
    Before jumping ahead to the specific steps of how to ensure 
the establishment of a new veterans' cemetery, I would like to 
welcome our witnesses here today who will be speaking in detail 
on the need for a cemetery here in Fillmore County and the 
steps that have been taken thus far.
    Again, I am delighted to be with all of you here today, and 
I now yield to my colleague and distinguished gentleman from 
Minnesota, my good friend Tim Walz, for his opening statement.
    [The prepared statement of Jon Runyan appears on p. 33.]

     OPENING STATEMENT OF HON. TIM WALZ, DEMOCRATIC MEMBER

    Mr. Walz. Well, thank you, Mr. Chairman, and thank you to 
all of you for being here today. I'd especially like to thank 
the Chairman for his service to veterans. As I often say when 
the frustration levels with government get high, I wish people 
could actually watch how we do things in the Veterans' Affairs 
Committee. The sole purpose of honoring that commitment that 
our servicemembers have made in making sure that we, as a 
nation, a grateful nation, follow through with everything from 
the benefits and the health care to that dignified burial, that 
says there's a grateful nation that will always remember.
    So, Chairman, I welcome you out here. It was a great chance 
for me to get up into New Jersey, and we oftentimes talk about 
rural issues of access, but the Chairman's district goes from 
Philadelphia out to the Jersey Shore. And while geographically 
it was fewer miles from Philadelphia where I was at to where we 
held the hearing, it actually took longer than it did for him 
to drive from Minneapolis down here. And I think those are 
issues that we have veterans stretched across this country, and 
I'm grateful to have him come out here and what I believe is 
the way it should be done--serving veterans. We have a 
collaborative effort from our local elected officials who have 
done heroic work and done what I think is visionary type of 
collaboration building to our veterans' service officers, to 
our state representatives, and now we're going to talk about 
the role of the Federal Government in terms of the cemetery 
grant program to make that happen. So it's these types of 
hearings, I think the Chairman was exactly right coming out of 
Washington and doing it out here, a way to make the connection 
to how this is supposed to work.
    We have an issue of how do we care and how do we bury our 
veterans. How do we make sure we do it in a cost-effective 
manner and make that happen, and you're proving ways to do 
that. So this hearing is going to be a way to make sure we get 
this project finished, get it over the line. I think there's a 
lot of my colleagues who will come in and talk to me about 
this. They want to learn from you, the lessons learned of how 
to make this happen, and I think that's what we can learn to 
take back and make a difference on things.
    This is a follow-up hearing on a hearing that the Chairman 
had on March 8th in the DAMA Subcommittee that was titled, 
``Honoring America's Fallen Heroes'', an update on our national 
cemeteries, which focused on the larger issues of the National 
Cemetery Administration. This is meant for you to talk to us 
about the local issues of making it happen, but we've seen that 
there are some issues with making things work. And there have 
been some issues of misidentification of grave markers and some 
of those cross into DoD responsibility at Arlington National 
Cemetery and others, but as a nation they are simply 
unacceptable. And while we do many, many, many things right, 
and I've said it time and time again, with our veterans it's a 
zero sum game. If one veteran or spouse is not served to the 
utmost diligence and the standards that we set, then we have 
failed them, and we need to continue to strive for that. I want 
to make sure, and I'm going to make a little bit of it here, 
some of the audits and the things that were happening.
    We're going to hear from our witnesses on the public 
private partnership, but we're also going to hear from the VA. 
We want to hear what they're doing or intending here on the 
work that I did from my constituents regarding whether there 
were mistakes related to grave site markers in the National 
Cemetery Administration. The National Cemetery Administration 
reports it made 249 mistakes out of 1.5 million grave sites, 
which when you look at it, that's just about Six Sigma of 
accuracy, but that's not good enough. We have to figure out how 
we do that better. We deserve the best for them.
    The VA in St. Paul has a workload of 91,000 cases, and it 
takes them upwards of a year to process benefits for burial 
claims. We had a lunch today with some of our county veterans 
service officers, and one of them brought Carol, who lost her 
husband last week and buried him on Saturday. There is the 
potential here that she'll receive a bill from the funeral home 
and wait a year for her earned veteran benefit for her husband 
who died with a service-connected disability. That is simply 
unacceptable, and what we have to do is piece these things all 
together to make sure that, one, the veteran and their spouses 
are served correctly. And two is that we're good stewards of 
the taxpayer dollars.
    I can tell you that I'm confident our folks at the VA and 
everyone in this room's overall and number one mission is to 
make sure we serve our veterans to the best of our ability, but 
we need to take advantage of best practices. We need to learn 
from things that didn't go right. We need to continue to lean 
forward. And I think today's hearing and listening to our 
witnesses we're going to hear in a minute will give us some 
great ideas to go back.
    I have a colleague from California who served quite a few 
terms in the State Assembly in California, now is a member of 
Congress, has told me he's been working for quite some time to 
figure out how to get a state veterans' cemetery near where he 
thinks it needs to be in his district. And so I hope I learn 
some things from you. I hope we bring back some fixes for folks 
and once again do our job of providing for veterans.
    So with that, I'm going to yield back to my good friend, 
the Chairman of the Committee, and look forward to your 
testimony.
    Mr. Runyan. I thank the gentleman, and I just want to be 
conscious of everybody's time, and we are in a little bit of a 
tight time frame here so we're going to try to keep the 
questions timely and effective. I know we had somewhat of a 
problem with some people in----
    Mr. Walz. He was referring to me specifically, I think.
    Mr. Runyan. No, but I just know everybody is on a time 
schedule so we'll get started.
    Today we're joined by a long list of people, and I'm going 
to run through the list of everyone testifying, and then we'll 
start the testimony in one minute. But today we are joined by 
Steve O'Connor, the Past State Commander of the Veterans of 
Foreign Wars. We're also joined by Lucy Barth, a veteran of 
Operation Iraqi Freedom; Nathan Pike, County Service Officer 
from Olmsted County; Chuck Amunrud, the Fillmore County 
Commissioner; Karen Brown, Fillmore County Coordinator; Jon 
Martin, Fillmore County Solid Waste Administrator; The 
Honorable Jeremy Miller, Minnesota State Senator; David 
Swantek, the Cemetery Director for the Minnesota Department of 
Veterans Affairs; and Glenn Powers, Deputy Under Secretary for 
Field Operations at the National Cemetery Administration, U.S. 
Department of Veterans Affairs, who is accompanied by Joshua de 
Leon, the Director of Veterans' Cemetery Grant Service at the 
National Cemetery Administration, U.S. Department of Veterans 
Affairs.
    Just to remind you, each of you will have five minutes to 
summarize your testimony, but I know some of your testimonies 
weren't that lengthy, as I've already read them, so I 
appreciate that, any time you can spare. And with that being 
said, your full and written statements will be made part of the 
hearing record and, Mr. O'Connor, we will begin with you for 
your oral testimony.

STATEMENTS OF STEVE O'CONNOR, PAST STATE COMMANDER, VETERANS OF 
FOREIGN WARS; LUCINDA BARTH, SERGEANT, MN ARMY NATIONAL GUARD, 
OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM; NATHAN 
      PIKE, COUNTY VETERAN SERVICE OFFICER, OLMSTED COUNTY

                  STATEMENT OF STEVE O'CONNOR

    Mr. O'Connor. Thank you, Mr. Chairman, Congressman Walz, 
for the opportunity to testify on this important issue 
pertaining to our country's veterans and the veterans of 
southeast Minnesota.
    For the record, my name is Stephen J. O'Connor. I'm a Past 
State Commander for the Veterans of Foreign Wars, Department of 
Minnesota, a retired Army officer and service-connected Viet 
Nam veteran.
    The Veterans' Cemetery Grant Program provides an 
opportunity for the Federal, state, and local governments, in 
this case Fillmore County, to work together to provide area 
veterans a final resting place honoring their service to their 
country.
    I feel certain that the construction of a state veterans' 
cemetery in southeast Minnesota would not be a possibility if 
it were not for the commitment and willingness of the Fillmore 
County Commissioners to work with local veterans' 
organizations, the state legislature, and the Minnesota 
Department of Veterans Affairs and local communities to 
identify and develop a suitable site. Fillmore County along 
with surrounding municipalities have always stood firmly in 
support of the men and women who have served this Nation. They 
participate in the County Veterans' Service Officers Program, 
which offers assistance to veterans reestablishing themselves 
in civilian life and have donated 155 acres of county property 
as a final resting place for those heroes who have answered the 
last call. The local branches of government have partnered with 
both veterans and private and public entities to provide for 
its veterans.
    As a veteran, I'm extremely pleased that there will be a 
cemetery where I can be interred with my comrades. Although 
there will be comrades from many different wars, from many 
different eras, we all share an experience that can never be 
explained to the protected and doesn't need to be explained to 
the warrior. It is fitting that there should be a hallowed 
place designated for our final rest.
    Thank you. That ends my testimony, and I will be pleased to 
answer any questions the Committee may have.
    Mr. Runyan. Thank you, Mr. O'Connor.
    [The prepared statement of Steve O'Connor appears on p. 
34.]
    Mr. Runyan. Ms. Barth, you're now recognized.

                   STATEMENT OF LUCINDA BARTH

    Sergeant Barth. Thank you for this opportunity to testify 
on behalf of the veterans from the surrounding area.
    My name is Lucinda Barth. I'm a Sergeant with the Minnesota 
National Guard and a veteran of Operation Iraqi Freedom and 
Operation Enduring Freedom. I'm also a service-connected 
veteran.
    It's approximately 140 miles to the Veterans' Affairs 
National Cemetery located at Fort Snelling in Minneapolis. The 
state veterans' cemetery is located 236 miles in Little Falls, 
Minnesota. These cemeteries are a great distance to travel for 
a veteran that would like to be interred in a veterans' 
cemetery, not to mention the inconvenience to a loved one who 
would have to endure--sorry, to visit the site of their loved 
one. I believe that if the Department of Veterans Affairs would 
approve the grant for the cemetery here in Fillmore County, 
that the surrounding veterans and their families will want 
their loved ones memorialized at that cemetery.
    I have traveled the world and seen many beautiful places. 
None of it compares to the beauty that we have right here in 
Fillmore County, especially in Preston. It's not only 
beautiful, but it's serene. I believe that this is the ideal 
location for a cemetery where we want our veterans and families 
to feel their loved one is at peace.
    I have been told on several occasions that it takes a 
special kind of person to join the Armed Forces and to fight 
for this country. Whether we joined during the--or were told to 
join during the Viet Nam area or joined when it became all 
volunteer, we still have--we are still that special kind of 
person. Preston would provide a final resting place that those 
veterans so honorably deserve to have.
    I strongly encourage you to go back to DC and vote in favor 
for Fillmore County to be the final resting place for so many 
veterans in this area. They deserve to have a place that will 
bring them and their families the peace that they need after 
the loss of a dear loved one. I know that Preston can bring 
that peace to so many families.
    Thank you for this opportunity again, and I will answer any 
questions you may have.
    Mr. Runyan. Thank you, Ms. Barth.
    [The prepared statement of Lucinda Barth appears on p. 34.]
    Mr. Runyan. Nathan Pike, you are now recognized.

                    STATEMENT OF NATHAN PIKE

    Mr. Pike. I've been here before. Thank you, Mr. Chairman 
and the rest of the Committee. I'd like to thank the 
Subcommittee for the opportunity to testify on behalf of over 
23,000 veterans and their families in southeast Minnesota, and 
that includes the following eight counties that I got that 
number from, which is Fillmore, Olmsted, Mower, Dodge, Goodhue, 
Wabasha, Winona, and Houston counties. This is an excellent 
opportunity to testify on the important issue of gaining a 
veterans' cemetery in Fillmore County.
    My name is Nathan Pike, and I am a veteran of the active 
Army and a retired Army National Guard noncommissioned officer 
with over 21 years of service. I served two tours of duty in 
support of KFOR operations in Kosovo and a tour as an embedded 
trainer to the Afghan National Army in 2005. I am also a 
service-connected disabled veteran.
    In the spring of 2010, I applied and received the job of 
Fillmore County Veterans' Service Officer. In the summer of 
2011 I started that position in Olmsted County. I am a current 
resident of Fillmore County residing in Spring Valley. As a 
CVSO, my job is to provide local assistance--to provide 
assistance to local veterans and their families through the 
Department of Veterans Affairs benefits, state veteran 
benefits, and anything remotely related to veteran issues and 
concerns for the veterans and their families of Olmsted County, 
Minnesota.
    The first point I would like to address is it is my sincere 
belief and that of many of our other veterans, including many 
in this room, that the Department of Veterans Affairs holds the 
responsibility of caring for the servicemember upon discharge 
to grave, and if need be, assisting the surviving widow/widower 
with benefits should they be eligible for said benefits. The VA 
can easily serve the veterans of southeast Minnesota with a 
veterans' cemetery specifically located in Fillmore County. The 
Fillmore County Board of Commissioners has graciously 
authorized the donation of land for this project. The excellent 
support is evident within the veteran service organizations of 
Fillmore County, which includes the Fillmore County Council of 
the American Legion, the oldest legion county council in the 
Nation, as well as unanimous support from the people and towns 
in Fillmore County. Even southeast Minnesota's largest print 
media, the Rochester Post-Bulletin, has endorsed the idea of a 
veterans' cemetery in Fillmore County. Providing a veterans' 
cemetery in Fillmore County has the potential of serving over 
23,626 veterans and eligible family members for the benefit and 
aid of burial in a veterans' cemetery. I researched that number 
from the American Community Survey from 2010 and that just 
includes the eight counties that I mentioned, not counties 
further west. The Committee should also take into account that 
even with the Iraq war winding down and being done, there will 
be more veterans returning to southeast Minnesota, most notably 
the return of the Minnesota Army National Guard First Brigade 
of the Red Bull Division.
    The second point I want to quickly address is the veterans' 
cemetery is an excellent opportunity for work. It will provide 
economic stimulus to Fillmore County. Whether the work is 
provided through local contractors or otherwise, there will be 
a need for workers to have access to local businesses in a 
variety of ways. After the cemetery is completed, there will be 
an added benefit of jobs providing an active cemetery and 
possibly employ up to a dozen people.
    Here are my final thoughts, I'll reiterate my two points, 
why a veterans' cemetery in Fillmore County. The first is that 
the Department of Veterans Affairs has a responsibility of 
caring for veterans and their families from discharge to death. 
The veterans' cemetery would be well-suited for a final resting 
place for our Nation's veterans. The land is free, and there 
will be economic stimulus to a rural county that is in need of 
such stimulus. I can tell that while working as the Fillmore 
County Veterans' Service Officer, I knew of three families that 
are patiently waiting for the creation of this cemetery so they 
can bury their loved ones here, and of course this is my end-
of-life plan as well as a final resting place, should this come 
up.
    Again, thank you for this opportunity to discuss this 
important issue, the veterans' cemetery for Fillmore County, 
Minnesota.
    If you have any questions, I'll gladly answer them. Thank 
you, Committee, Mr. Chairman.
    [The prepared statement of Nathan Pike appears on p. 35.]
    Mr. Runyan. Thank you, Mr. Pike. And all three of you, 
thank you for your service to our country. We appreciate it. My 
first question is for Mr. O'Connor. Obviously we're here today 
telling a story and the need that we have here, but from your 
opinion, can you explain what the opportunity to be buried in a 
veterans' cemetery means to you and your former comrades.
    Mr. O'Connor. Well, for me specifically, a little personal 
matter, I was 3 years ago diagnosed with lung cancer from Agent 
Orange. I'm in pretty good shape now, but if you're a betting 
man, you can bet that I'm going to be gone in the next 2 years 
because there's a 25 percent chance of survival at 5 years. I 
made my life serving this country and serving with people, you 
know, my comrades here, and there's no greater honor than to be 
placed beside them. And that's something that wouldn't happen 
if we don't have a cemetery in this area because my wife and 
family are not going to go to Minneapolis or to Little Falls, 
you know, other than just to inter me there. So for me and for 
the people I know, the people that serve in our organization, 
you know, it means that we can be, as I said in my testimony, 
we can be with our comrades. We can be recognized for our 
service. And I hope that answers your question, Mr. Chairman.
    Mr. Runyan. Thank you. And it does because it is truly, I 
know--it's a special, unique thing that all of you volunteered 
to do and serve the country. And it is truly--to have a final 
resting place with your other comrades, it is an honor.
    The next question is for Mr. Pike. Why do you believe the 
County Board of Commissioners donated this land, besides the 
fact that there was a need here? Were there other underlying 
issues that needed to be addressed to honor our fallen?
    Mr. Pike. To the best of my knowledge, Mr. Chairman, is 
that this was done wholeheartedly just to honor veterans. 
There's empty land that's just sitting there. I think they 
might be collecting minimal rent for farming. And I believe one 
of the Commissioners or Ms. Brown would be able to better 
answer that. But I truly believe that in their heart of hearts 
as Fillmore County Commissioners, that they looked for a good 
idea, to say we have an opportunity to take care of our 
veterans and honor them with a final resting place, and other 
counties around this area did not have the land available that 
Fillmore County has.
    Mr. Runyan. And going back, you were talking a little bit 
about the impact that it will have on the community, on the 
local economy. Can you expand on that a little bit? I was 
talking to a gentleman upstairs about that and he said you 
would be walking down a path next to the river and looking up 
on the hillside and seeing that. It is something to come and 
see, to honor those who have served. Can you kind of explain 
how we draw in and actually can, not only honor veterans, but 
also benefit the community?
    Mr. Pike. The bottom line is after the completion of the 
cemetery, surrounding families would come to this area to visit 
their loved ones on the important days of like Memorial Day, 
Veterans' Day, Independence Day, and they would stop and either 
get flowers at a local flower shop, they'd stop at a gas 
station, spend some money on gas, get a Coke, go out to eat, 
they would see this. They would see the other things that 
Fillmore County has to offer with trout fishing or biking or 
anything else. But I do truly believe that with the cemetery 
here, it will draw people in. And if they have to drive a 
distance, say, from Steele County or Freeborn County, which is 
about an hour away, they will probably want to stop and get 
something, whether it's gas or flowers and pay respects to 
their loved ones that way.
    Mr. Runyan. Thank you.
    Mr. Pike. Thank you, Mr. Chairman.
    Mr. Runyan. Ms. Barth, just quickly, not to press you too 
hard. I know you're a little bit nervous. But just talking 
about, as you mentioned in your opening statement, talking 
about distance and location, what is your opinion on why this 
is the perfect location for this cemetery?
    Sergeant Barth. It's--I'm sorry, I'm really nervous.
    Mr. Runyan. Don't worry about it.
    Sergeant Barth. The cemetery would be within a reasonable 
distance from their loved ones, and there's so many veterans in 
this surrounding area that really need a place that they can 
memorialize their loved ones. And just to refer back to--you 
know, I've been around the world and I've seen, you know, I've 
seen places, but Preston is--the beauty here, the river, the 
trees, the green. It's just every time I come home from being--
whether it was in Iraq or Afghanistan, you become in awe of the 
beauty that's around here, and it's just a very peaceful place 
to live. And it's a peaceful place where the loved ones that, 
you know, when they bury their loved ones, they know that are 
going to be at peace. And it's a place that they can come and 
visit them and be at peace themselves with the passing of their 
loved one.
    Mr. Runyan. Thank you for that. And with that, I'll yield 
to the gentleman from Minnesota, Mr. Walz.
    Mr. Walz. Sergeant Barth, well said, that was exactly 
beautiful, and I appreciate that. Often with my colleagues, 
they hear me talk about southern Minnesota and I can see them 
roll their eyes and go, oh, Walz represents Mayberry, every 
town in Mayberry, in Preston, in Fillmore County. So in every 
sense of this, there is a sense of home, and I think when you 
serve your Nation, that sense of home is felt here. I felt that 
sense of home with Congressman Runyan's constituents in New 
Jersey, and it doesn't all look like Jersey Shore, I can tell 
you, on the show.
    Mr. Runyan. Which I do represent.
    Mr. Walz. He tells me they are all transplants from Queens. 
But that sentiment is very true. I've listened to all of you, 
and I can tell you, Steve, I'm not a betting man but we're not 
doing that burial for quite some years to come. But I do share 
that with you, as a fellow servicemember, I think there's 
something to be said about this. I always tell the story of 
when I went out to Walter Reed and visited one of our wounded 
warriors who came back and was a Marine, Sergeant Leonard. They 
introduced me, said this is Congressman Walz from the VA 
Committee, he's a retired Sergeant Major. And he never missed a 
beat. He said, ``Oh, I'm sorry about that.'' I'm like thinking, 
oh, he's a Marine, he's going to get under my skin. I said, 
``What are you sorry about?'' And he said, ``I'm sorry you took 
the demotion to Congress, Sergeant Major.''
    I thought it was very interesting, though, the sentiment 
about that shared comradery that is hard to understand if you 
haven't been there. But to watch a community, I couldn't be 
prouder of this community. I think what we understood when I 
talked to the Chairman and the Committee staff about coming out 
here, I think we've got a model that can work in other places. 
I think what the County Commissioners have done and what our 
State Representatives and Senators have done in collaborating, 
and I'd like to mention, I think he's in the room somewhere, 
our Commissioner of Veterans' Affairs, Larry Shellito, is here 
today. Is General Shellito around? There he is in the back 
(indicating). The General was the Adjunct General of Minnesota 
and my commander, in full disclosure, at one point.
    But this is collaborating together today, and I have a 
couple questions for you guys. This is an issue we always 
struggle with because as a nation, Chairman Runyan and myself 
and the 433 other Representatives there, we're trying to 
struggle with a limited amount of resources, trying to deliver 
the best quality of care, trying to make sure we prioritize, as 
all government entities do, that we're prioritizing our 
veterans first. One of the issues that we continue to struggle 
with is this mandate of having 80,000 veterans in a 75-mile 
radius. This is somewhat of a challenge for rural areas. And 
while the VA has made exceptions, as we were just discussing in 
eight states, to reduce that number down, other states like 
Wyoming and Idaho and other places, what ends up happening is 
that's why you have a state like Minnesota with a fairly equal 
distribution of population, that it might not meet those 
mandates. And so I guess I ask each of you, how do we--and I 
want to be very clear, Nathan, the numbers you gave, we also 
get to include my colleague, Mr. Braley down in Iowa, and his 
constituents, and Mr. Kind over in Wisconsin, about 
collectively coming together on this. Do you think we need to 
look at those numbers again, this 80,000 number, or do you 
think that makes sense? I'm troubled by areas that are more 
rural, how we serve our population.
    Mr. Pike. I believe, Congressman, they may need to be 
looked at again, and they may likely lower that number to 
50,000 honestly, and that might better suit areas like the 
Midwest or in places less, like Wyoming and South Dakota, 
Montana, and that.
    Mr. Walz. I never get the feeling from my constituents that 
they're not willing to make sure we lay our veterans to rest. I 
think what they're unwilling to say are my tax dollars going to 
something that they should go to. So I always think that we 
have to consider how this goes, but it's very difficult in 
hearing the stories from my colleagues on the difficulty of 
getting a cemetery. It is really challenging, as our folks that 
are going to testify later from the VA are going to tell you. 
They are trying to deliver, but these are regulations that we 
set up to make sure that we guard those dollars.
    Mr. Pike. Maybe we should change the regulations, 
Congressman, and let's not forget that because of the veterans 
we have an operating democracy and a republic. The only reason 
we're sitting here is because of those who are shouldering a 
rifle in our defense right now overseas on our behalf and not 
in this country. That's the biggest statement I can say is 
don't forget we exist and have the freedoms and opportunities. 
We have free elections because there's somebody there standing 
on a wall. There's somebody standing on a line overseas 
shouldering a rifle.
    Mr. Walz. Would the three of you think that we can get this 
thing done, collectively get this thing done, but are we 
already moving on to the next one where there's a need for 
more.
    Mr. Pike. I believe there will be a need for more, points 
west or even in northeast Minnesota.
    Mr. Walz. Do you think this is the model to make that 
happen.
    Mr. Pike. I believe so, Mr. Congressman, yes, sir.
    Mr. Walz. Okay. I will go back to the Chairman.
    Mr. Runyan. Thank you, gentlemen, and I thank each of you 
for your testimony and thank you all for your service, and with 
that, you are excused, and we'll welcome the second panel to 
the table.
    Mr. Walz. Thank you all.
    Mr. Runyan. Our second panel consists of Chuck Amunrud, the 
Fillmore County Commissioner; Karen Brown, Fillmore County 
Coordinator; and Jon Martin, Fillmore County Solid Waste 
Administrator. Each of you will have five minutes to summarize 
your testimony, and your full written statements will be made 
part of the hearing record. And, Mr. Amunrud, you are up first. 
Thank you for your testimony.

  STATEMENTS OF CHUCK AMUNRUD, COMMISSIONER, FILLMORE COUNTY; 
   KAREN BROWN, COUNTY COORDINATOR, FILLMORE COUNTY; AND JON 
       MARTIN, SOLID WASTE ADMINISTRATOR, FILLMORE COUNTY

                   STATEMENT OF CHUCK AMUNRUD

    Mr. Amunrud. Thank you, Chairman Runyan, Mr. Walz. Just for 
the record, my last name is a Norwegian name. It's Amunrud. My 
great-grandfather took the E out and put the U in so he could 
get his mail on Sunday in church.
    Mr. Walz. My staffer's name is Kjeseth, which starts with a 
K, and I'll never understand that, so I'm with you, Chuck.
    Mr. Amunrud. I first want to say thank you to the Committee 
for taking time to come to our beautiful Fillmore County. It is 
indeed an honor to be invited to testify on behalf of Fillmore 
County.
    My name is Charles Amunrud, and I am a Fillmore County 
Commissioner representing the Third District.
    I am also a 60 percent disabled veteran, enlisting in the 
United States Air Force from 1968 to 1972. I do get emotional 
when I talk about it.
    My statement will mention the local collaborative efforts 
of our State Legislature, the State Department of Veterans 
Affairs, the Fillmore County Board, and our local veterans' 
groups, reasons for Fillmore County Board's decision to donate 
land for a veterans' cemetery.
    The board was approached in 2009 by our then State Senator 
Sharon Erickson-Ropes, who at that time served on the State 
Senate Veterans' Committee, wanting to find land that would be 
suitable for a new veterans' cemetery in the southeast part of 
our state. The Fillmore County Board suggested that they would 
consider giving up a portion of land the county owned next to 
Preston that consisted of approximately 245 acres.
    In November of 2009, the then current State Commissioner of 
Veterans' Affairs, Michael Puglisi, and staff visited the 
Fillmore County Board to discuss the possibility that our 
proposed site could be suitable and the need to do preliminary 
work on the site. We discussed the need to amend then the 
current state statute. The statute had set aside funding to 
acquire land and design for two new cemeteries in southwest and 
northeast Minnesota. We now needed the state legislature to 
amend the law to include southeast Minnesota for land 
acquisition and design.
    During the 2010 session, State House Representative Greg 
Davids, who still represents our district, and the then State 
Senator Sharon Erickson-Ropes both were crucial in getting the 
law changed to include southeast Minnesota.
    During this time frame, the Fillmore County Board was 
visited by our local veterans' groups who presented resolutions 
of support urging us to gift the land needed as a way of paying 
honor to our veterans from our citizens. The board agreed.
    We then learned that we were not done at the state 
legislature. The new law would again need to be amended to 
include southeast Minnesota due to language in the original law 
as part of a bonding bill. It needed another hearing.
    In 2011, our new State Senator, Jeremy Miller, along with 
State Representative Greg Davids, proposed legislation that 
passed into law making Fillmore County a priority in funding 
for design to construct a new state veterans' cemetery. Our 
entire region is in support knowing that families will benefit 
from having their loved ones buried closer to home. New jobs 
due to construction and the ongoing operations will have a 
long-term benefit to our local communities.
    Finally, I want to say thank you to the Subcommittee on 
Disability Assistance and Memorial Affairs, the Minnesota State 
Legislature, the Minnesota Department of Veterans Affairs, to 
my fellow county board members, two of which are here, 
Commissioner Duane Bakke and Commissioner Tom Kaase, if you 
would stand, (applause) in a very positive collaborative effort 
to benefit our past, current, and future veterans, I'll be 
happy to answer any questions.
    [The prepared statement of Chuck Amunrud appears on p. 36.]
    Mr. Runyan. Thank you, Mr. Amunrud. With that, Ms. Brown, 
you are now recognized.

                    STATEMENT OF KAREN BROWN

    Ms. Brown. Good afternoon. Thank you, Mr. Chairman, 
Congressman Walz. We're very honored to have you in Fillmore 
County this afternoon, and we welcome you.
    My name is Karen Brown, and I serve as the Fillmore County 
Coordinator. Part of my position is to serve as Clerk of the 
Board of County Commissioners. Since this is a special project 
for the board, I've supported their efforts in working with all 
parties that have contributed effort and expertise related to 
this project for a successful collaboration.
    The grant process, as Commissioner Amunrud stated, began in 
actually 2008 when there was the legislative session that 
directed us to identify any potential site for a new veterans' 
cemetery in southern Minnesota. Subsequently a document 
produced by Mr. David Swantek, the Cemetery Director of 
Minnesota State Veterans' Cemetery of Little Falls, which 
identified an underserved veteran population in southeast 
Minnesota. This report was reported or was presented to the 
board in 2010. The board began having conversations at that 
point about a possible transfer of the county land known as the 
county farm for use as a cemetery. This incredibly beautiful 
proposed site features scenic bluff lands, gentle valleys, and 
the Root River and would seem to be a perfect use for this 
land. Including populations of veterans in Iowa and Wisconsin, 
an estimated total of 40,000 veterans live within 75 miles of 
this proposed site.
    After conversations about where the land transfer was 
considered by the board, the next step in the local process was 
to assess the wishes of the people. With land values 
increasing, the members of the board wanted to make sure that 
there was support before any transfer decisions were made. All 
veteran service groups and municipalities in the county were 
contacted and asked about their opinions about the cemetery. 
The result was unanimous. Fillmore County veteran organizations 
and city officials whole-heartedly supported the proposal with 
30 resolutions of support on file. In addition, community 
support has been great. Commissioners to my knowledge have not 
heard opposition to this project.
    In February 2010, the consensus of the board was to begin 
the process to move forward with the transfer of land. The 2011 
Legislature in special session enacted legislation which 
supported the proposal. Further, the legislation included 
language asking for a priority designation by the Commissioner, 
since the land was proposed to be donated in southeast 
Minnesota. Following that legislation, collaborative 
discussions have occurred with all levels of government, 
countless documents have been submitted, field assessments have 
been completed, and land records have been reviewed in 
preparation for the cemetery site approval.
    Throughout this process, all of those involved have been 
very cooperative in providing support for the project. The 
County Board made the land available, and municipalities 
supported the donation. Minnesota Veterans' Affairs officials 
have been most helpful in answering our questions and by 
providing information. Our Minnesota Senators and 
Representatives have passed the enabling legislation and are 
aware of the state's ongoing responsibilities for a cemetery in 
Fillmore County. Last but not least, Federal officials have 
been essential in this partnership of governments by funding 
the Veterans' Cemetery Grants Program.
    The keys to an effective process seem to be the following:
    Willingness for local elected officials to donate the 
significant amount of land.
    Willingness for local elected Minnesota Representatives and 
Senators to carry and support the legislation.
    Willingness of State of Minnesota agencies to work together 
in a cooperative manner to come to agreement to finalize these 
agreements, the transaction.
    And willingness of the Federal Government to provide grant 
funding to finance the construction of the cemetery.
    And finally, willingness of the State of Minnesota to fund 
the ongoing operation and maintenance of the cemetery.
    If I might end on a personal note, I would like to add that 
I've been married to a Viet Nam vet for 42 years in March. Much 
has changed for the better since he came home. He was 
discharged from the Navy in `69. As you know, that was not a 
popular war. There were very few thank you's when those 
veterans came home.
    Today due to national efforts by the Veterans' Affairs and 
other veterans' advocacy groups to promote support of military 
personnel and veterans, all of that has changed. Veterans now 
returning from their tours of duty are welcomed back as heroes, 
as they should be. Now there are often welcome home events with 
bands playing, veterans' groups at the airport, families and 
friends waving flags, and the media capturing it all for the 
evening news. That is a good thing and a tribute to the VA and 
the American people to recognize a job well done.
    In closing, I would like to say that I feel the national 
grant process works well, and if successful, will benefit our 
county for many years to come. I will take any questions. Thank 
you.
    [The prepared statement of Karen Brown appears on p. 37.]
    Mr. Runyan. Thank you, Ms. Brown. Mr. Martin is now 
recognized.

                    STATEMENT OF JON MARTIN

    Mr. Martin. Good afternoon. Thank you, Mr. Chairman and 
Subcommittee members for inviting me to speak to you on the 
importance of the veterans' cemetery in Fillmore County and to 
give you some background on the land that Fillmore County is in 
the process of donating for this purpose.
    Let me start by expressing my desire for this cemetery to 
become a reality in the very near future. This is an asset that 
is needed for the veterans in the southeast corner of Minnesota 
and also the veterans in Iowa and Wisconsin. With the travel 
time to either Minneapolis or Little Falls, the time it takes 
to register and walk to the grave site and then pay your 
respects, it takes most of the day. This process can be very 
exhausting and may be a cause for loved ones to not visit as 
much as they would like.
    Now, some basic information on me. I started with Fillmore 
County in January of 1996 as a Transfer Station Attendant and 
held that job for a little over 2 years. In 1998, I was 
appointed to my present position of Solid Waste Administrator/
Resource Recovery Center Manager by the Fillmore County Board 
of Commissioners. One of my charges there, Mr. Amunrud, likes 
to call me the gatekeeper of the county farm.
    Over the course of my employment with Fillmore County, I 
have been involved with the land that's called the Fillmore 
County Farm. This is a piece of property that had a couple of 
old farmsteads on it that were combined into one parcel. This 
property was purchased by Fillmore County to build a transfer 
station when the only solid waste landfill in Fillmore County 
closed. Over the course of the years, a building was built to 
house the Source Separated Composting Facility and the 
Recycling Center. Later on, a new building was built with state 
grant money to allow the composting operation to be moved under 
cover and produce a better-finished product. A household 
hazardous waste building was added to allow for the collection, 
sorting, packaging, and shipping of hazardous waste to a 
licensed shipper for proper disposal. Composting was 
discontinued in the year 2000 due to a number of reasons, and 
the recycling center was changed to a single-stream collection 
system where recyclables are shipped out for processing and 
marketing. The recycling center and the composting building 
have now been repurposed for use by the Fillmore County Highway 
Department for a maintenance shop and a sand and salt shed.
    Fillmore County was involved in a program in the early 
`90's that required the planting of trees on some of the 
farmland. Fillmore County planted a mix of red and white pines 
and some walnut trees. These areas have now grown into 
beautiful spots to walk through and are a haven for all kinds 
of wildlife.
    Speaking of wildlife, Fillmore County allowed hunting on 
the farm up until last year. With the cemetery moving forward 
and the need for soil borings, the artifact discovery process, 
wetland surveying, and the need for people to be out there 
doing their jobs, Fillmore County decided to close the farm to 
hunting. Many, many people used the farm for hunting. Some 
drove a long way because there was not land available for them 
to hunt on near home. Every fall I would have a list of 30 to 
40 people that would ask to hunt there. Everyone was supposed 
to ask permission to hunt and were given a list of rules to 
follow. This worked out well for the most part. When Fillmore 
County decided to close the farm to hunting, very few people 
were upset when I told them the reason for closing was to 
facilitate the process of getting a veterans' cemetery here.
    In closing, I would like to reinforce to you the support 
that I have received from hunters that used the farm, hikers 
that enjoyed walks through it, people that use the transfer 
station and recycling facility, fishermen and boaters that use 
the river, and the many people and veterans that I talk to on a 
daily basis that want to make this veterans' cemetery a reality 
in Fillmore County.
    Thank you for your time and your consideration of this 
project.
    [The prepared statement of Jon Martin appears on p. 38.]
    Mr. Runyan. Thank you, Mr. Martin. I appreciated all of 
your testimony. Mr. Amunrud, thank you for your service. Ms. 
Brown, tell your husband thank you for his service. And thank 
you both for testifying about the collaborative efforts between 
the state and the state legislature and the state VA and the 
County Board. At this time, have these groups had any 
interaction with the U.S. Department of Veterans Affairs?
    Mr. Amunrud. These groups, the State Department of Veterans 
Affairs and the U.S., have had relations. They've had contact. 
In fact, we've had I think this is the second visit from 
Washington out to look at the site. They find it spectacular, 
and they are quite excited.
    Mr. Runyan. That was my next question, how that interaction 
has been perceived and how it's going forward.
    Mr. Amunrud. Yes, and we really, really appreciate that 
because, you know, when you get collaboration from the top----
    Mr. Runyan. The Federal Government.
    Mr. Amunrud. The Federal Government all the way down to the 
local citizen and it's all smiles, it's all great, everybody 
wants to see this happen, and we've had absolutely no 
dissension on any of this. It's all been very good, and I 
appreciate it. In fact, the State Department of Veterans 
Affairs has worked very hard internally to help us make this 
happen, and I want to thank them. I know they will be up to 
testify.
    Mr. Runyan. And I want to go there because we're here 
obviously to, as Congressman Walz said, to make this a model 
and learn from this experience. We know we don't live in a 
perfect world, so I think Mr. Martin made a comment about maybe 
even some people disagreeing with it, but to learn these 
lessons--Ms. Brown said there was no opposition to it, but 
there had to be one or two people here and there, and could you 
give us some examples of that.
    Mr. Martin. Just some of the people that were not 
necessarily from the area, but they would--they've been hunting 
on the farm for years and years and years. They call up and we 
have to inform them this year that we have closed the farm to 
hunting. You know, right away, well, what am I going to do now? 
I don't understand what happens in New Jersey, but hunting is a 
pretty big deal down here in the southeastern part in 
Minnesota. And when you close a piece of ground for people to 
hunt on, some of them get upset. There's no doubt about it. But 
when you tell them that this is why we're closing it, give them 
a reason other than, well, we don't want you hunting there 
anymore, somebody wounded a deer and left it lay, things like 
that, you tell them it's going for a veterans' cemetery. We're 
going to have people up there that are doing the wetland 
surveys, doing the artifacts discovery, surveying, soil 
borings, stuff like that, they understand. They say that's a 
great thing. They will find someplace else to hunt. Whether 
they did or not, that I couldn't say, but they were okay with 
it after you explained it to them.
    Mr. Runyan. There are hunters in New Jersey, by the way. 
I'm actually fortunate enough to own a nice parcel of land, 23 
acres, and I have a couple of people that ask to hunt on my 
property all the time.
    Mr. Martin. And people that don't ask.
    Mr. Runyan. Very true. Therefore it must be posted all the 
time. Maybe for Mr. Amunrud, you had a glowing testimony, but 
again, where can the process be improved?
    Mr. Amunrud. Well, Mr. Chairman, Congressman Walz, you 
mentioned this number, a mandated number. It doesn't seem to 
make sense for the Midwest. It just doesn't. And I could see it 
possibly in more denser population areas, but when you start to 
spread out, I think that's where you could make your 
improvement, if you could massage that number, you know. I 
don't know what that number would be, but 80,000 seems just 
really out there. And that would be one thing I could say.
    One of the positives, I always try to think of positives, 
is that people sitting in this room today is testament to our 
collaborative efforts. And I want to thank you and your 
committee for taking the time to have the field hearing here 
where we could meet and talk with you folks. I'm so pleased 
with the State of Minnesota, the Department of Veterans 
Affairs, and I'm pleased with the visits from Washington that 
have been very fruitful and they were very kind, and the 
community accepted and welcomed them here. And I think they 
felt welcomed as well, and I hope everybody else does feel 
welcome.
    Improvements? I think we've done just about everything we 
could, and I believe we've done a good job. And I think the 
government has done a good job. It's in your rules. If you ask 
me, if there's going to be an improvement, it would be 
somewhere in your numbers. That's all I have, Mr. Chairman.
    Mr. Runyan. I appreciate it. With that, I will yield to Mr. 
Walz.
    Mr. Walz. Again, thank you all. I can't tell you how proud 
I am to have a small piece in this. I often say I stand on the 
shoulders of giants, and it's no more true than today of the 
folks who have done the hard work. But I think the lesson here, 
and we often talk in our Committee about this and why I think 
it's so healthy, is the idea when these things are functioning 
correctly with communications out there, when it is 
collaborative, and when the best interests of all of our 
taxpayers as well as those things that we have responsibilities 
to deliver, like care of our veterans, is put on the 
forefront--the things that we can achieve are unlimited. So I 
can tell you this is one of the reasons we wanted to do this, 
to take a look at this project, to hear this. You've inspired 
others. So now we're in the southwest talking about it down in 
Pipestone and other areas. So you start to see what's happening 
is people want to know how we can replicate this. And I guess 
maybe in your testimony you explained this, but I think and I'm 
convinced that on almost anything you do, building that 
consensus and collaboration locally, allowing people to have a 
say on what's gone in on this is certainly the right way. Now, 
obviously if this were a solid waste generator or something, we 
may have a little more--or a tire burner, I wasn't going to 
bring it up. But since we all know where that goes, it's truly 
about the same process, about getting out there and 
communicating to them.
    So I guess maybe I'm hearing from you is that would be your 
suggestion to other communities because you really have 
inspired others. And I think you recognize--I think maybe you 
do, this group does anyway, how far this has reached out to 
folks not just in Minnesota, but as I said, our colleagues in 
Congress want to know how we do this, how we make this happen, 
and how we collaborate together. It's very encouraging for us 
to hear that you're getting positive responses on things, that 
people are coming out.
    Now, we just this morning, as I said, were discussing the 
other side of things. There may be some problems in delivering 
the benefits to those people once we try and inter them in this 
cemetery. Now, that's another issue we'll continue to improve 
upon. But from your perspective, if these other communities 
were going to try and make the case for this and they think 
that the numbers are approaching where they need to be in terms 
of veterans, what would your suggestions to them be? How do you 
start? How do you go do this, to get a cemetery? Go ahead.
    Mr. Amunrud. Congressman Walz, if I could respond, I 
believe it would be essential for continuing to make an 
investment, and that would include a donation as an honorary. I 
really do. It's not very often----
    Mr. Walz. You think this land contribution pushed this 
forward? Would we have been able to get this land elsewhere, 
would there have been money to buy it.
    Mr. Amunrud. Not really, sir. A limited amount of money 
from the state legislature was set aside.
    Mr. Walz. The community leader or if we have a private 
donor? That way, it would be the other way.
    Mr. Amunrud. Correct. That's right. Yes.
    Mr. Walz. Do you think that's true, Ms. Brown?
    Ms. Brown. I definitely agree. I commend the board on their 
foresight and to gather the community support to do the 
transfer because land values in southeast Minnesota are quite 
high. So it was not an easy decision for the board to make. But 
they did, went through the process. They talked to the 
veterans' group. They talked to the communities. They talked to 
their constituents and had a thoughtful process to come to that 
decision to make this donation, and therefore had the support 
of the community and the county to do so.
    Mr. Walz. Once that decision was made, you speak of the 
process and, Chuck, you said it worked pretty smoothly to go 
through. Is the process laid out clearly? I mean, it's a 
wonderful testament to these legislators where we passed from 
one legislator to Senator Miller, who continued on that legacy 
and got it done. Is it laid out there how to do this, or were 
you kind of writing the rules as you went along?
    Ms. Brown. I think they had the political savvy to know 
what was needed to be done. Their consummate connections to 
their constituents and those local connections are what made it 
work. They have a very open process here at the county board. 
There's a lot of discussions. Our wonderful local newspapers 
are very good about reporting what the proceedings are from the 
county board. So there's continual information being given out 
to the people in the county and the contacts were made. So it's 
nothing written down. It was just a process to not move too 
quickly but to gauge the support.
    Mr. Walz. What's left to get this thing done? What has to 
happen until we start laying those warriors to rest with the 
honor they deserve?
    Mr. Amunrud. Presently, Mr. Walz, Mr. Chairman, we are in a 
quiet title action for a little bit of right of way in the 
front from the Department of Transportation. There was some 
issue with the recorded deed that we decided to take care of 
during the quiet title action. And after that is finished, and 
we're nearing that now, we should be done with that here in the 
next couple of weeks. And then it begins the process of getting 
the site design done. We were trying to get our grant in before 
the June deadline. Of course we won't be able to make it until 
next year, so we're past the deadline. Yeah, it's designed 
and----
    Mr. Walz. Why is June the deadline?
    Mr. Amunrud. Perhaps later Mr. Swantek, the Little Falls 
Cemetery Director, there's a grants program that has a deadline 
for submitting designs and the site to be approved, and I 
believe it's sometime in June your fiscal year ends. I'm not 
sure. He could better answer.
    Mr. Walz. I'll ask him some of the specifics, but the 
process you mentioned is not too cumbersome, it's fair?
    Mr. Amunrud. Oh, the process is more than fair, and they 
have been right at our side. They've kept us informed, they 
have asked for information, and we've provided it. And we've 
asked them for information, and they were more than willing to 
provide it. It's been a great process. Yes, they can answer 
that part. But really now all we need do is begin digging.
    Mr. Walz. If I could be the devil's advocate in this, what 
if--what happens if we don't get the grant.
    Mr. Amunrud. You'll have a lot of disappointed people. And 
I'm not only saying Minnesota, but we're talking western 
Wisconsin, northeast Iowa. They have all known--this is known. 
This has been out there for 3 years, going on 4.
    Mr. Walz. I think that's right.
    Mr. Amunrud. And we've done everything we could possible, 
our legislature again, the State Department of Veterans 
Affairs, the planners from Stantec Corporation that are 
involved in the planning process.
    Mr. Walz. I'll ask when Senator Miller gets up here, I know 
he gets these letters from constituents who are waiting and you 
know these stories, that's why I said the June deadline. I 
would like to think maybe we could have multiple times to get 
things in so that we can continue to move. It might be an issue 
that if we're getting there and all our ducks are in order, the 
idea that a couple of weeks may make us wait an entire another 
year, does that make sense to you?
    Mr. Martin. No, it does not. There should be a variance 
process or something that you can go through.
    Mr. Walz. That's the reason I asked about that. We'll ask 
that question coming up here.
    Mr. Amunrud. I would appreciate that.
    Mr. Walz. I guess back to the Chairman.
    Mr. Runyan. Thank you, gentlemen, and thank all of you for 
your testimony. And with that, you're now excused.
    Mr. Amunrud. Thank you. It's been a pleasure.
    Mr. Runyan. I'd like to welcome the third panel up here. 
This third panel consists of The Honorable Jeremy Miller, 
Minnesota State Senator, and David Swantek, the Cemetery 
Director at the Minnesota Department of Veterans Affairs. Each 
of you will have five minutes to summarize your testimony and 
your full written statements will be made part of the hearing 
record. Senator Miller, you may begin.

   STATEMENTS OF THE HON. JEREMY MILLER, SENATOR, MINNESOTA 
 LEGISLATURE; AND DAVID SWANTEK, CEMETERY DIRECTOR, MINNESOTA 
                    DEPARTMENT OF VETERANS 
                            AFFAIRS

              STATEMENT OF THE HON. JEREMY MILLER

    Mr. Miller. Thank you, Mr. Chairman and Members of the 
Committee. It feels a little different being on this side of 
the testimony today.
    I'd like to begin by thanking all of you for being here 
today in Preston, Minnesota, here in Fillmore County. It's a 
great honor to have you.
    Over the past couple years, it has been my honor to work 
closely with Representative Greg Davids, local officials from 
Fillmore County, local veterans' organizations, the Minnesota 
Department of Veterans Affairs, and several other officials 
here in Fillmore County to designate southeastern Minnesota as 
a location for a new veterans' cemetery. I'd also like to 
thank, publicly thank, former State Senator Sharon Erickson-
Ropes for her work on this issue.
    The many veterans in our aging population have created the 
need for additional cemetery space, and the National Cemetery 
Association concluded in 2008 that southern Minnesota was 
outside a recommended 75-mile service area for the state's two 
existing veterans' cemeteries at Fort Snelling in Minneapolis 
and in Little Falls in central Minnesota.
    More than 30,000 veterans live within 50 miles of this 
site, and it would mean a tremendous amount to them and their 
families to know that this nearby spot will be their final 
resting place. I am proud to be part of honoring our veterans 
in this way.
    Again, I'd like to extend my most sincere thanks to the 
House Committee on Veterans' Affairs for holding this public 
hearing, and all those who have been involved in helping us 
make the tremendous progress in this issue before us. And, 
Congressman Walz, I have to say that you're absolutely right, 
the local officials, the members of the Fillmore County Board 
and all the staff have absolutely energized and enthused people 
about this issue, and they've done the heavy lifting on this.
    [The prepared statement of Jeremy Miller appears on p. 39.]
    Mr. Runyan. Thank you, Senator Miller. Mr. Swantek, you're 
now recognized.

                   STATEMENT OF DAVID SWANTEK

    Mr. Swantek. Chairman Runyan, Congressman Walz, for the 
record my name is David Swantek. I work for the Minnesota 
Department of Veterans Affairs, and I am the lead point of 
contact for the establishment of three proposed new state 
veterans' cemeteries in the state of Minnesota.
    It is a tremendous honor to be before you today in Preston, 
Minnesota for this hearing honoring our Nation's veterans, 
examining the Veterans' Cemetery Grants Program.
    It was 150 years ago President Abraham Lincoln promised a 
war-torn nation that those that had borne the battle would be 
honored and not forgotten. A system of national cemeteries was 
the product of that promise. These national shrines remain 
today, a daily reminder to the tremendous cost of freedom and 
democracy, which we as American citizens have enjoyed since 
1776.
    It has been my deep privilege for the past 20 years to work 
with the families of American heroes, our veterans, during the 
greatest times of need. As a cemetery caretaker at the Oregon 
Trail State Veterans' Cemetery in my home state of Wyoming and 
for the past 16 years as the Director of the Minnesota State 
Veterans' Cemetery in Little Falls, Minnesota, I have been a 
direct witness on a daily basis to the profound gratitude that 
veterans' families experience knowing their loved ones rest 
with honor in perpetuity next to their comrades in arms. The 
State of Minnesota is proud to provide this honor to those who 
seek our services, and we are committed to expanding access to 
this earned benefit throughout our great state.
    In 1985, the Minnesota State Legislature passed legislation 
authorizing a state veterans' cemetery in Minnesota. The 
location was undetermined and the state had no formal plans to 
construct a state veterans' cemetery. In 1986, two World War II 
veterans from central Minnesota discovered the authorizing 
legislation from the previous year and were determined to have 
a state veterans' cemetery constructed in central Minnesota. As 
members of a local DAV chapter, these veterans identified a 
parcel of property, raised the funds necessary to purchase the 
property, and donated the site to the State of Minnesota to be 
used for a new state veterans' cemetery. Due to a lack of 
development funds, the State of Minnesota did not pursue the 
development of a cemetery and instead returned the donated land 
back to the local DAV chapter in 1989. Undeterred, this local 
group of veterans organized an association and began soliciting 
development funds from state veterans' service organizations, 
local businesses, and individual donors. This group of 
dedicated veterans built a ground swell of support in the 
legislature and ultimately with former Governor Arne Carlson.
    Outside the control of the state, in 1994 a decision was 
made to begin operating burials of veterans at the cemetery in 
Little Falls. While understandable from the perspective of a 
dedicated group of veterans, it was detrimental to the early 
development of the cemetery in Little Falls.
    In 1995, the State of Minnesota was awarded its first grant 
from NCA. At the time, the grant program was a 50 percent 
matching grant, requiring the state to provide 50 percent of 
the costs for construction.
    In 1999, Congress authorized NCA to begin providing up to 
100 percent of the development costs to construct, expand, or 
improve state veterans' cemeteries, and the State of Minnesota 
applied for a second grant from NCA in 2001 for our cemetery in 
Little Falls. Last July the cemetery in Little Falls was 
recognized by the State Veterans' Grants Program for excellence 
of appearance. Only four of 86 state veterans' cemeteries in 
operation have been awarded this honor. And I'm especially 
proud of this recognition, given our humble beginnings and 
difficult circumstances under which the cemetery in Little 
Falls was established.
    In 2007, Governor Tim Pawlenty announced that the state 
would construct an additional state veterans' cemetery in 
northeast Minnesota.
    And during the 2008 legislative session, it was necessary 
to amend the authorizing legislation to allow the state to 
operate additional cemeteries in Minnesota.
    In 2009, we reported to the state legislature that the 
areas of southeast and southwest Minnesota also had population 
centers that would support the construction of new state 
veterans' cemeteries in southern Minnesota.
    In 2010, we provided information to Fillmore County about 
the requirements of a suitable site in this area, and they were 
supportive and offered a donation of the 155 acres that we're 
talking about today. It required, as has been mentioned in 
earlier testimony, that there was some necessary amendments to 
the language in the state legislature for the authorization of 
a cemetery in southeast Minnesota. And I'm happy today to 
report that we've made significant progress in doing site 
suitability work, environmental and cultural assessment, soil 
borings, grading analysis, and other requirements that are 
necessary to construct a state veterans' cemetery.
    Since 1994, the state committed to provide our Nation's 
heroes with a final resting place which commemorates and honors 
their sacrifice and service to our country.
    Because of the cooperation of state, Federal, and local 
officials, I'm confident that in the near future we will gather 
again to dedicate a new national shrine in Fillmore County to 
honor our American heroes. I'll be happy to take your 
questions.
    [The prepared statement of David Swantek appears on p. 39.]
    Mr. Runyan. Thank you, Mr. Swantek. With that, I'll start 
the first round of questions. Going back to what we asked the 
panel earlier as to lessons learned, and Congressman Walz made 
an example out of this, Senator Miller, can you further explain 
the legislative efforts that went into this, the new veterans' 
cemetery and that process?
    Mr. Miller. Sure. Thank you, Mr. Chairman and Members of 
the Committee. We had to make some language changes basically 
first to designate southern Minnesota and then later to give 
Fillmore County a priority for a veterans' cemetery. I can't 
say enough again about the local officials here in Fillmore 
County. They really have done the heavy lifting. I can't say 
enough about the Minnesota Veterans' Affairs and their 
department. It has just been an honor and a privilege to work 
with them. And this proves that although government sometimes 
works slowly, that it does work, and it's been an honor and a 
privilege to work again with these folks.
    Mr. Runyan. The next question is for Mr. Swantek. Given 
your experience with the cemeteries here in Minnesota, what is 
your overall impression of the Veterans' Cemetery Grants 
process?
    Mr. Swantek. Well, I've been involved with the grants 
program for a lot of years. We've had a couple multimillion 
dollar projects in Little Falls. I find the grants office to be 
very easy to work with, very responsive to questions that we 
might have regarding design, the submittal process that's 
required in their office. And, you know, over the years they've 
had different directors in that office out there, and we 
continue to find that they are hiring very capable individuals, 
and our experience in Minnesota has been very positive with 
that office.
    Mr. Runyan. You said in your testimony that it can be 
difficult to find a site and obviously you said as directors 
move through, sometimes it is difficult. So from your 
experience, what are the things that you look for as we use 
this as a model? What are the things you use in looking for a 
site?
    Mr. Swantek. Mr. Chairman, we have an extensive list of 
site standards, everything from aesthetics to environmental 
concerns, cultural concerns. A mistake a lot of people make in 
other areas of the state when we've gone and looked at 
potential cemetery properties is you walk out on a site, just 
like here in Fillmore County, and aesthetically it's 
magnificent. I've looked at pieces of property in Duluth for a 
cemetery that we've proposed up there that are some of the most 
impressive pieces of property I've ever stepped foot on 
overlooking Lake Superior. But we're concerned also with what 
the development potential is ten feet below the surface. Our 
day-to-day operation is a cemetery, and so what may look very 
beautiful, may not work for a cemetery. So the process of 
almost seeing it as maybe a subdivision or some kind of 
community development project is more how you have to look at 
it from the perspective of aesthetics and a long other list of 
criteria. And to find a local government partner like Fillmore 
County to step forward, to donate a suitable piece of property 
has been key. We've been looking for property in Duluth since 
2008, and while we've had cooperation from the county 
government in St. Louis County, we've just not been able to 
produce a suitable site up there, which is a frustration for 
the veterans community in northeast Minnesota.
    Mr. Runyan. Was it hard, in your mind, to move this site 
into the suitable site category?
    Mr. Swantek. Mr. Chairman, no. When we did some of the 
initial studies, there were no significant red flags that came 
about. We've done environmental work. We've done cultural work. 
We've done wetland delineation on the property. Fillmore 
County, not knowing maybe fully what we expected for a cemetery 
site, offered up as close to a perfect donation for a cemetery 
site as possible.
    Mr. Runyan. Thank you very much. With that, I will yield to 
Mr. Walz.
    Mr. Walz. Well, thank you both indeed for your testimony. 
And, Senator Miller, I want to thank you for your work on this, 
along with Representative Davids. I'd also like to note your 
graciousness to former Senator Ropes. It honors the democracy, 
and I'm very appreciative of that, so thank you for that upon 
delivering for our veterans and making that the highest 
priority.
    Senator, we're hearing this again, to try and, you know, we 
want to make sure that we're working on metrics, the number of 
veterans. You heard the numbers that I was giving from the VA's 
requirements. But I would also make the argument that there 
needs to be some variance in that based on geographic location. 
How important is this local collaborative effort in helping you 
make the case that you made to your colleagues to pass this and 
move it into Mr. Swantek's court, and basically of us moving 
into the next step? Again, I'm trying to look for these other 
communities, what they can do to make this work?
    Mr. Miller. Sure. Thank you, Mr. Chairman and Congressman 
Walz. In this scenario, Fillmore County made it easy. They made 
it easy for us because they donated the land, a prime piece of 
property in a beautiful part of the state. So we certainly can 
use this as an example. It's extremely important for the 
constituents here in southeastern Minnesota as well as in 
Wisconsin and Iowa. It's not just a Minnesota thing. It is 
regional, and that's very important. But we can truly use this 
as a model, and maybe there's a way that we can encourage other 
communities to donate the land as well because it's worked very 
well. We know that money is tight at the Federal level. It's 
tight at the state level. It's tight at the local level. So 
anything we can do to encourage collaborative effort for our 
local units of government to work together with us at the state 
level and you folks at the Federal level, it will be extremely 
helpful.
    Mr. Walz. Well, I think that public/private partnership is 
the key. My fear is to watch somebody on a, if you will, and 
not an oversimplification, but on a bureaucratic line say, 
well, you don't have 80,000, a better location would be here 
when there is no community involvement, there has been no 
effort of collaboration, and now all of a sudden we're just 
picking a spot where we say this would be a better geographic 
spot to meet our requirements of 80,000 veterans. And maybe to 
you, Mr. Swantek, is that something that can happen? Would you 
anticipate that could be an outcome of saying you simply don't 
have the volume of veterans, and we would feel if you moved 
closer towards Olmsted County or something, whatever, I just 
fear that when you've got a community, you've got by, and 
you've got the collaboration built, you've got the resources 
being compiled, could it happen, though, that would be the case 
of where they would choose to make this based on the metric of 
veterans.
    Mr. Swantek. Mr. Chairman, Congressman Walz, I believe 
those--the veteran population centers when you get down under 
80,000 is the perfect example of where a state veterans' 
cemetery comes in and provides a cemetery in the locations that 
don't meet that Federal criteria. If you look at the three 
projects that we have competing on the priority list for state 
cemetery construction funding, this project in southeast 
Minnesota has about 50,000 veterans. Our other two projects are 
down in the 20,000 range, but yet they compete very high on the 
state cemetery priority list. So if you can find a state, and I 
talk to colleagues of mine in other states, they do not have 
the support of their state legislature like we do in Minnesota.
    Mr. Walz. That's just making it harder. Is that why they're 
coming to me and saying this, so I have this in my 
questionnaire for Senator Miller, we set the priorities, we 
have a Federal grant process, it's going to be important to 
make this happen? But Senator Miller knows his constituents 
well, he knows this area well, and the case to make is if the 
state can make the case for this cemetery, that should be an 
overriding factor on the grant process to say we need to 
deliver because the Senator, the Representatives, the County 
Commissioners, everyone else has done their work, now we need 
to take the case. Because I think one of the fears is now all 
of a sudden the Federal Government's going to trump this whole 
decision-making, and that's very frustrating. So I think at 
this point it's worked the way it's supposed to, would that be 
fair to say?
    Mr. Swantek. Mr. Chairman, Congressman Walz, absolutely. 
The process has worked, I don't want to say flawlessly, but 
worked very well in the State of Minnesota in my experience.
    Mr. Walz. Mr. Swantek, and my time is running out, but I 
just want to follow up on this, do you think there's any reason 
why we couldn't have multiple entry dates to try and get the 
grants.
    Mr. Swantek. Mr. Chairman and Congressman Walz, it's a date 
that runs up against the end of the Federal fiscal year. So 
there are multiple dates along the way that we can submit 
design plans to the grants office. If we miss a deadline on May 
15th, we just get right into the cycle. It doesn't mean we have 
to wait until May 15th the following year. We can make that 
submit along May 17th. It's just that we won't get funded from 
this cemetery, from the National Cemetery Administration, 
until----
    Mr. Walz. In September, that's wishful thinking--the 
process is so frustrating. I understand exactly what you're 
saying. The process is that is somewhat of an arbitrary date 
anyway as the appropriation process works its way out. I guess 
maybe I'm more like some of these veterans, I don't know how 
many years I can wait type of attitude on this. I think when it 
comes to serving our veterans, that this is one that my 
patience is--I'm so short fused on. I want to get it done as 
quickly as possible. And I think, yes, it's only a year, yes, 
we're in the process, yes, they'll get the grant, but that's 
slower time to get this thing built. So I appreciate your 
understanding that and that we can go forward, but if there's 
anything we can do to speed that up, I would certainly 
appreciate it. I'll go back to Chairman Runyan for more 
questions.
    Mr. Runyan. Thank you, gentlemen. I thank you, gentlemen, 
for your testimony, and you're now excused, and we'll welcome 
the fourth panel up.
    The fourth panel consists of Glenn Powers, Deputy Under 
Secretary for Field Operations of the National Cemetery 
Administration, U.S. Department of Veterans Affairs. He's 
accompanied by Joshua de Leon, the Director of Veterans 
Cemetery Grants Service at the National Cemetery 
Administration, U.S. Department of Veterans Affairs.

  STATEMENT OF GLENN POWERS, DEPUTY UNDER SECRETARY FOR FIELD 
PROGRAMS, NATIONAL CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; ACCOMPANIED BY JOSHUA DE LEON, DIRECTOR OF 
      VETERANS CEMETERY GRANTS SERVICE, NATIONAL CEMETERY 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Powers. Thank you, Chairman Runyan and Representative 
Walz. I appreciate the opportunity to speak today regarding the 
efforts taken by the VA, Congress, and the State of Minnesota 
to honor our Nation's veterans with a specific focus on the 
Veterans' Cemetery Grants Program. I would like to submit my 
written statement for the record.
    Mr. Runyan. The complete written statement will be entered 
into the hearing record.
    Mr. Powers. It is an honor to be here in Preston to be a 
part of the discussion on how to meet the burial needs of 
veterans in the state. I'm joined by Mr. Joshua de Leon, the 
Director of the Veterans Cemetery Grants Program.
    Previously you heard from David Swantek, Director of the 
State of Minnesota, Little Falls Veterans' Cemetery. The VA has 
worked closely with Mr. Swantek on various successful grants 
for that cemetery. We continue to work with him in our review 
and processing of a grant application request for funding for a 
state cemetery in Fillmore County.
    I would also like to acknowledge the many representatives 
from various local veteran service organizations and the many 
local veterans here today. The VA seeks to ensure that eligible 
veterans and their loved ones are provided a burial option in a 
national, state, or tribal veterans' cemetery. The National 
Cemetery Administration managed the system of 131 VA national 
cemeteries in 39 states and in Puerto Rico. The Veterans' 
Cemetery Grants Program, which was authorized by Congress in 
1978, provides a critical partnership with the states in 
ensuring grant funding is available to establish state, tribal, 
and U.S. territory veteran cemeteries. Grant-funded cemeteries 
provide a burial option in places where veterans are not fully 
served by the VA National Cemetery. For Minnesota veterans, 
Fort Snelling National Cemetery, located over 115 miles or 2 
hours away from Preston, serves veterans in the Minneapolis-St. 
Paul area. It is the fourth busiest cemetery in our nationwide 
system. Minnesota veterans are also served by the Minnesota 
State Veterans' Cemetery near Little Falls. This is close to 4 
hours from Preston, with VA and the state playing important 
roles in supporting and administering grant applications. VA 
may fund up to 100 percent of development costs for projects to 
establish, expand, improve, and maintain a state, tribal, or 
U.S. territory veterans' cemetery.
    Since 1978, VA has awarded over 275 grants totaling more 
than 482 million dollars to 86 veterans' cemeteries. State and 
tribal organizations are responsible for acquiring the land and 
maintaining the cemeteries once they become operational. These 
federally funded cemeteries must operate solely for the 
interment of eligible veterans and their eligible spouses and 
dependents. They are required to conform to VA prescribed 
standards and guidelines for site selection, planning, 
construction, appearance, and operations. They are to meet the 
same national shrine standards as our VA national cemeteries. 
VA awards grants based on processes and implementing 
regulations. These are designed to ensure a fair and equitable 
grant administration that benefits the greatest number of 
veterans. Applicants are ranked on a priority list based upon 
the size of the veteran population to be served and the type of 
grant, either to expand an existing cemetery, to keep it open, 
or to establish a new cemetery. The state or tribal 
organization must pass legislation authorizing the project and 
providing the necessary architectural and engineering funds to 
allow the project to be developed. One hundred percent of these 
costs are reimbursable following the grant award.
    We are pleased to work with the State of Minnesota on their 
plans to continue to ensure more veterans will have access to a 
burial option. The State of Minnesota has applied for a VA 
grant to expand and improve the Minnesota State Veterans' 
Cemetery in Little Falls. This grant is included as part of the 
department's current year, fiscal year 2012 operating plan. The 
proposed Minnesota State Veterans' Cemetery in Fillmore County 
would be a critical need in providing an estimated 50,000 
additional veterans with a burial option within 75 miles of 
their residences. Mr. de Leon and I walked the proposed site 
today which the county generously plans to donate for the 
proposed state cemetery. The VA will continue to work with the 
State of Minnesota for the fiscal year 2013 prioritization 
process.
    I appreciate the Subcommittee's continued interest in 
improving access to burial options for veterans, and I'm 
available to take your questions.
    [The prepared statement of Glenn Powers appears on p. 41.]&
    Mr. Runyan. Thank you, Mr. Powers. Can I have a status 
update on the proposed site including, where we're at in the 
process? Have you had any discussions at that level?
    Mr. Powers. I'm going to defer to Mr. de Leon. Obviously we 
had status updates with Mr. Swantek today when we walked the 
site.
    Mr. de Leon. Thank you, Mr. Chairman and Congressman Walz. 
First off, I just want to talk about the overall relationship 
with the State of Minnesota and Mr. Swantek and Mr. Shellito. 
We are very proud to have them as state partners. We also have 
a very long history dating back to 1995 with the Little Falls 
State Veterans' Cemetery in Minnesota. I also want to point out 
in terms of this overall package, it's a very good package. 
We'd love to see this happen in terms of what Mr. Powers 
mentioned, over 50,000 veterans. Just to clarify, we're not 
limited by the 80,000 specials for national cemeteries on the 
state cemetery program. So that said, there are four programs 
in the priority list for FY `12 for the State of Minnesota. 
Three of those four were opted to be deferred by the State of 
Minnesota. But three of those four are new establishment 
projects, all 50,000 and as Mr. Swantek mentioned, 20,000 each 
in terms of the unserved veteran population. So in terms of 
again the State of Minnesota and our partnership, we're very 
proud of that and would love to see these projects go through. 
That said, in terms of overall status with the Preston, 
Minnesota, MN 10-05 project, the project was to establish a new 
establishment of the preapplication submitted on June 29, 2010. 
A grant opportunity letter was sent to the State of Minnesota 
on October 1st of 2011, just last year. On October 12, 2011, 
the land for the proposed cemetery was walked by a project 
manager from my office as well as members of Mr. Swantek and 
other members from the State Department of Veterans Affairs in 
Minnesota. The State of Minnesota accepted the grant 
opportunity on October 15, 2011. The process that was in play 
at the time from the--from October 15th through about 
February--or I'm sorry, the January time frame was site 
suitability determination, which is basically on the shoulders 
of Minnesota State to complete the suitability determination. 
That work was in progress. The project was deferred on February 
16th of 2012. From that point, the deferral, the deferral 
project for our program are automatically placed in the next 
cycle for priority list, so this project would automatically be 
a preapplication. It would basically be a default 
preapplication submission for the FY `13 priority list process.
    The other thing I want to point out in terms of whether 
this project places, again talking about the threshold of 
80,000 and 50,000, that not being necessarily a threshold for 
our program. That said, the way the Veterans' Cemetery Grants 
Program priority list was in Minnesota, southeast site in 
Preston, the proposed project ranked number 11 out of 104 
projects for FY `12 in terms of our priority list. That is very 
high, okay? In terms of the priority grouping, so as referenced 
in our written testimony, there are four priority groups. All 
of the new establishments are placed in priority group two. In 
terms of priority group two, this ranked the highest in terms 
of unserved veteran population. So we're very confident in this 
project and are very--again, it's an open process on an annual 
basis. We're confident that it should fare well in FY `13.
    Mr. Runyan. Thanks for that. That answered most of the 
questions I had for you. But going back and again trying to use 
this as a platform for other states to do similar things, are 
there any other factors that are taken into consideration 
before a grant is approved other than the steps that you've 
outlined? For example, if the cemetery meets all of this 
criteria, is the proposal automatically approved?
    Mr. de Leon. I'm sorry, sir, can you clarify the question?
    Mr. Runyan. If you meet all the criteria, are you 
automatically approved, or is it constantly having to go 
through the process over and over.
    Mr. de Leon. Sure. Thank you, sir, for the question. In 
terms of the completion of the criteria for the grants process, 
again, it's on an annual basis. Mr. Swantek had mentioned a May 
15th deadline. Also in addition to site suitability, since this 
work is going to be contracted out for development construction 
work, I think one of the other gentlemen in the earlier panels 
mentioned that there's construction planning that goes on, and 
the process actually has to go out to bid. So some of this in 
terms of the deferral, I think the State of Minnesota actually 
graciously deferred the project, seeing how many steps were 
required to actually meet the deadline. It wasn't necessarily 
the deadline. The process was open, and the state actually 
deferred based upon where it landed in the planning process.
    Mr. Runyan. And in your dealing with that, how long on 
average does the grant program application process usually 
take?
    Mr. de Leon. Let's say the site suitability went through 
and the earlier mentioned title action was not an actual issue, 
if everything had gone and as you had mentioned, full 
completion of criteria for the grant program, sir, all grant 
applications would have been viewed by July 15th for 
completion, with the completion of all the criteria. From that 
point in time, the secretary of the VA then reviews and 
approves by 30 September of that same year the grant package, 
and probably less than a week later grant award letters are 
sent out notifying the state of the grant award, with work 
being able to begin immediately.
    Mr. Runyan. So in your experience, has this project taken 
any more or any less time than average.
    Mr. de Leon. Sir, in terms of new establishments, you know, 
we typically have, from what I've seen, various issues that 
come into play. Deferrals are relatively common for new 
establishments. Site acquisition is tough for any state. 
There's also resource issues involved with planning. I 
mentioned some of the other, you know, contract processes that 
are in play, getting available vendors to participate and come 
in with the state guidelines, which we defer to the states in 
terms of their process. But in terms of how this ranks with 
other projects that are deferrals, I would say this is 
basically par for the course. I mean, this is common for new 
establishment projects. Again, in terms of once these issues 
are worked out, our process works by an annual cycle, within 
one cycle, one fiscal year cycle.
    Mr. Runyan. Just one last question, not to get too far into 
the weeds, but obviously a lot of the burden of proof is put on 
the state to come to you. Does the program itself challenge any 
of their--whether they are geological or water surveys, all 
that kind of stuff, or do you leave it all up to them, or do 
you come in and duplicate those surveys? Being stewards of the 
taxpayers' money, is it a dual process there?
    Mr. de Leon. Yes, sir, and it's a good question, thank you. 
It's actually a very fine line we walk. We talk about 
optimizing taxpayer dollars, including the right to any of the 
following court regulations, court and Federal regulations, and 
in our case that's project 39, which we try to use as C. That 
said, on my staff I have project managers who are actually 
landscape architects. When I mentioned that we walked the site 
after the opportunity letter went out in October, within a week 
after the letter went out, my staff actually flew out here and 
did the site walkthrough. We want to see these projects go 
through. I'm a veteran myself, Mr. Powers is a veteran, and 
we're proud to serve in this capacity, and we would like to see 
these projects go through.
    Mr. Runyan. Thank you, Mr. de Leon. I'll yield to Mr. Walz.
    Mr. Walz. Thank you, Chairman. It's a nice segue, and I 
wanted to thank you both for that. I wanted to thank you for 
choosing your professional lives to serve our veterans' 
interment. This is an incredibly important part of that 
process. I would argue it's a very important part of our 
country, of how we take care of those willing to serve. So 
thank you for that. And it's very helpful for me to hear you 
lay these things out, this criteria, and I'm glad to hear 
because I think the word was more maybe anecdote than anything, 
those concentration numbers were seen as more of a priority 
than they are. But what I'm hearing from you is the whole 
package, the whole proposal, you may not have a concentration 
of 60,000 or 80,000, it may be 20,000. But if that's in the 
right area and the state comes through with the proper 
proposal, they are going to be viewed with the same favorable 
eye as another one. That's very helpful. Any chance, I know 
this is the chance you take again as you said this project was 
11 out of 104. The first ten were additions to the existing 
facility, priority one, which you have to keep those going?
    Mr. de Leon. Yes, sir.
    Mr. Walz. So they were the first of the new constructions, 
first on the list of new construction. I guess we face the 
possibility that there could have been others coming in this 
year that would do that, but my take is, of those 104, how many 
will be funded?
    Mr. de Leon. Of the 104 served, Federal RFY total priority 
list fell in about half of that list. So in terms of our 
priority groups, for FY `12 our approved budget, and again 
thank you for your support in terms of the Subcommittee. We 
were able to fund all priority one--priority group one, two, 
and three and a good portion of our priority group four 
projects with our FY `12 budget, sir.
    Mr. Walz. That was my next question on that. Are there 
adequate resources, consistently approving adequate dollars 
into this program to make sure we care for our veterans, and I 
understand this is a question that goes all the way to the 
secretary's level when he makes his budget, but is that--in 
your opinion, are we getting there.
    Mr. de Leon. Sir, again, thank you for the question. We 
appreciate the Committee's continued support for the Veterans' 
Cemetery Grants Program. We work closely with the state and 
also the tribes to make sure we're meeting their needs based on 
our annual appropriations and our priority list. And in FY `12, 
if that's any indication, we were able to successfully fund 
priority groups one, two, and three projects, which are our 
highest priority projects through FY `12.
    Mr. Walz. That's great. In what you've heard today from the 
folks in here, starting with the local veterans who came back 
and made the case to this, to the County Commissioners who made 
this layout, to the State Representatives who spanned election 
cycles and parties to still continue to get this done, you said 
on time-wise it's about par for the course, but is this the 
proper approach to this, in your opinion, with the State of 
Minnesota's input from the Veterans' Affairs? You guys see this 
all over the country. You get to see a 50,000-foot view of 
everybody doing this. Is this the proper way to approach this?
    Mr. Powers. Sir, from everything I've seen, it is. I mean, 
you need community support. Once that cemetery is built, that 
community support has to stay there. In order for that cemetery 
to function as sacred ground, the people there have to know 
that it's sacred ground. The community revolves around that 
cemetery. We see that in our larger cemeteries and our smaller 
cemeteries. And if I may, the question of adequate support, I'd 
just like to comment that in 2004 in terms of our criteria of 
how many veterans were served, NCA considered 75 percent of our 
Nation's veterans were served with a cemetery at the 
appropriate distance. Because of this fabric of our national 
cemeteries, our State Cemetery Grants Program, we are at 90 
percent, and by 2015 our strategic goal is to achieve 95 
percent. So these are overlapping things. That's why when you 
talk about 80,000 here, that's the criteria for the national 
cemetery. But then when we come down to the state cemetery 
grants program, any state cemetery, any state legislature can 
put their applications in.
    Mr. Walz. So we really have given more control back to the 
local states, given back control to the local regions to make 
these with support from the Federal Government.
    Mr. Powers. We give them that ability. Actually we look at 
that window. They operate in below the 80,000 mark, come up 
with, you know, obviously the criteria does place some emphasis 
on concentration of population, and that's why this particular 
cemetery with 51,000 veterans, I think some people mentioned 
earlier in testimony 26,000. I think they were only looking 
within the Minnesota boundaries, but you've got Wisconsin and 
Iowa there too. So this one, although there are no guarantees 
when that slate comes up for fiscal year 2013, you've got a 
large concentration of 50,000 veterans. That achieves our 
strategic goals because when we lay out strategic goals in NCA 
for serving veterans, the states are our partners in how we do 
that.
    Mr. Walz. So you say if Chairman Runyan and myself go back 
and we talk to our colleagues and in our districts also, other 
places here, kind of lit a fire under a lot of folks to see 
some potential, if we go talk to our colleagues on this, we can 
lay out this collaborative effort, this nature of getting those 
partnerships of making sure that your application stresses all 
of those things, plus those commitments, and that will ensure 
they've got a better chance to get this off and funded.
    Mr. Powers. It's all about collaboration, and Mr. Swantek 
has long been part of our fabric. He goes to our training 
activities. Our engineers visit his cemetery that's been in 
operation to advise, assist, whatever we can do. It's all part 
of the team.
    Mr. Walz. And I might add, it feels like I spent a lot of 
my life up at Camp Ripley, and I can tell you that that 
facility is second to none. And that cemetery is a real sense 
of pride. A lot of veterans go through those gates right down 
the road to Ripley. A lot of veterans have gone through there 
as they got deployed then and left for elsewhere, and that 
cemetery is certainly part of the fabric, so I thank you both 
for that. I yield back to Mr. Chairman.
    Mr. Runyan. Thank you, gentlemen. I thank both of you for 
your service to this country's cause on both fronts. Thank you 
both. And with that, that completes our oversight hearing 
today. In closing, I want to say to Minnesota veterans and all 
veterans, that the House Committee on Veterans' Affairs and my 
Subcommittee will continue to listen to your needs and work to 
fix several issues that we discussed here today.
    Congressman Walz, I want to thank you for inviting me here 
to your district today and helping make this important hearing 
possible. It's been a pleasure having you serve as my Ranking 
Member at this hearing. And I know veterans and the 
Subcommittee benefit greatly from your dedication and your 
military service. Thank you for that. Do you have any closing 
remarks?
    Mr. Walz. Just again, thank you, Chairman, for coming out, 
the commitment, and I hope for all of you--you're a great 
example for all of us. I see that that spirit of collaboration 
and stewardship of taxpayer dollars, as well as fulfilling our 
moral obligation to our veterans is alive and well. I would 
like--and I think Mr. Powers really hit on this, and I can 
assure you it may not show up as a tangible in the application 
for this, but this community understands this. They understand 
that this will transform Preston into already a very special 
place, but it will be hallowed ground and that peace, you can 
feel it amongst the people. You can feel the sense of pride. So 
I think that's why the sense of urgency to get this done, to 
show what's possible, and to honor those veterans is so strong. 
So with that, Mr. Chairman, thank you for all the hard work you 
do and hopefully you got a little taste of southern Minnesota. 
So with that, I yield back.
    Mr. Runyan. Thank you very much. I ask unanimous consent 
that all members have five legislative days in which to revise 
and extend their remarks. Hearing no objections, so ordered. 
Once again, it's been my pleasure to be with you all here 
today, and I thank all the esteemed witnesses for their 
testimony, and my good friend Mr. Walz for inviting me and 
being present here today. With that being said, this hearing is 
now adjourned.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning. Usually when we hold our DAMA Subcommittee hearings, 
we are sitting in Washington. Today, I am honored and happy to be here 
with all of you at the Fillmore County Courthouse, in the District of 
my colleague and good friend, the Honorable Timothy Walz.
    I would like to personally thank Mr. Walz for inviting me to his 
district, and I'd like to thank everyone for being with us today.
    Although we are far away from our normal hearing room on the Hill 
and the CSPAN cameras, this is still an official Congressional 
oversight hearing of the House Veterans Affairs Committee, and 
therefore hearing rules of hearing conduct apply.
    Therefore, I would respectfully request that everyone be courteous 
to our witnesses and remain silent until the hearing is formally 
adjourned.
    In Chairing the Subcommittee on Disability Assistance and Memorial 
Affairs, I have had the opportunity to work on many issues that affect 
our Nation's veterans, whether they are in my home district of New 
Jersey, here in Minnesota, or elsewhere across the Nation.
    From working on these issues, I have learned firsthand that a 
veteran's final resting place is a subject of the utmost importance, 
not just to those who have served our country, but also to their 
families and loved ones.
    As our veteran population continues to age, and as we wind down two 
overseas conflicts, the placement of our national and state veterans' 
cemeteries becomes increasingly important.
    Accordingly, we are here today to talk about the Veterans' Cemetery 
Grants Program and the possibility of placing a new veterans cemetery 
right here in Fillmore County.
    It is my understanding that the need for a veterans' cemetery 
exists and a suitable location has already been determined. I look 
forward to hearing more from the citizens of Fillmore County, as well 
as the VA, in today's testimony.
    It is my hope that by bringing all parties together here today, we 
can make progress in evaluating the Veterans' Cemetery Grants Program 
and, ultimately, to serve the needs of our veterans as best we can.
    As I'm sure many of you are aware, cemeteries established under the 
grant program must conform to the standards and guidelines pertaining 
to site selection, planning, and construction, as prescribed by VA.
    These cemeteries must be operated solely for the burial of 
servicemembers who die on active duty, veterans, and their eligible 
spouses and dependent children. Further, any cemetery assisted by a VA 
grant must be maintained and operated according to the operational 
standards and measures of the National Cemetery Administration.
    So, we are here today to examine this process, not from afar in 
Washington DC, but right here in Fillmore County where this program has 
a chance to make a direct impact.
    Currently, there are approximately 45,000 veterans in southern 
Minnesota who would be eligible for burial in a veterans' cemetery. It 
is my understanding that VA is aware of the need for a veterans' 
cemetery in this area, and I hope that through our efforts here today, 
we are able to accomplish this goal of ensuring that this need is 
fulfilled.
    Before jumping ahead to the specific steps of how ensure the 
establishment of a new veterans' cemetery, I'd like to welcome our 
witnesses here today who will be speaking in detail on the need for a 
cemetery here in Fillmore County, and the steps that have been taken 
thus far.
    Again, I am delighted to be with you today and I will now yield to 
the gentleman from Minnesota, and my good friend, the Honorable Tim 
Walz.

                                 <F-dash>
Prepared Statement of Steve O'Connor, Past State Commander, Veterans of 
                              Foreign Wars
    MR. CHAIRMAN, MEMBERS OF THE COMMITTEE; THANK YOU FOR THE 
OPPORTUNITY TO TESTIFY ON THIS IMPORTANT ISSUE PERTAINING TO OUR 
COUNTRY'S VETERANS AND THE VETERANS OF SOUTHEAST MINNESOTA.
    FOR THE RECORD MY NAME IS STEPHEN J. O'CONNOR. I AM A PAST STATE 
COMMANDER OF THE VETERANS OF FOREIGN WARS DEPARTMENT OF MINNESOTA, A 
RETIRED ARMY OFFICER AND A SERVICE CONNECTED VIET NAM VETERAN.
    THE VETERANS CEMETERY GRANT PROGRAM PROVIDES AN OPPORTUNITY FOR THE 
FEDERAL, STATE AND LOCAL GOVERNMENTS, IN THIS CASE FILLMORE COUNTY, TO 
WORK TOGETHER TO PROVIDE AREA VETERANS A FINAL RESTING PLACE HONORING 
THEIR SERVICE TO THEIR COUNTRY.
    I FEEL CERTAIN THAT THE CONSTRUCTION OF A STATE VETERANS CEMETERY 
IN SOUTHEASTERN MINNESOTA WOULD NOT BE A POSSIBILITY IF IT WERE NOT FOR 
THE COMMITMENT AND WILLINGNESS OF THE FILLMORE COUNTY COMMISSIONERS TO 
WORK WITH LOCAL VETERANS ORGANIZATIONS, THE STATE LEGISLATURE, THE 
MINNESOTA DEPARTMENT OF VETERANS AFFAIRS AND LOCAL COMMUNITIES TO 
IDENTIFY AND DEVELOP A SUITABLE SITE. FILLMORE COUNTY ALONG WITH THE 
SURROUNDING MUNICIPALITIES HAVE ALWAYS STOOD FIRMLY IN SUPPORT OF THE 
MEN AND WOMEN WHO HAVE SERVED THIS NATION. THEY PARTICIPATE IN THE 
COUNTY VETERANS SERVICE OFFICER PROGRAM, WHICH OFFERS ASSISTANCE TO 
VETERANS REESTABLISHING THEMSELVES IN CIVILIAN LIFE AND HAVE DONATED 
155 ACRES OF COUNTY PROPERTY AS A FINAL RESTING PLACE FOR THOSE HEROES 
WHO HAVE ANSWERED THE LAST CALL. THE LOCAL BRANCHES OF GOVERNMENT HAVE 
PARTNERED WITH BOTH PRIVATE AND PUBLIC ENTITIES TO PROVIDE FOR ITS 
VETERANS.
    AS A VETERAN, I AM EXTREMELY PLEASED THAT THERE WILL BE A CEMETERY 
WHERE I CAN BE INTERRED WITH MY COMRADES. ALTHOUGH THERE WILL BE 
COMRADES FROM MANY DIFFERENT WARS, FROM MANY DIFFERENT ERAS, WE ALL 
SHARE AN EXPERIENCE THAT CAN NEVER BE EXPLAINED TO THE PROTECTED AND 
DOESN'T NEED TO BE EXPLAINED TO THE WARRIOR. IT IS FITTING THAT THERE 
SHOULD BE A HALLOWED PLACE DESIGNATED FOR OUR ETERNAL REST.
    THANK YOU AND THAT ENDS MY TESTIMONY. I WILL BE PLEASED TO ANSWER 
ANY QUESTIONS THE COMMITTEE MAY HAVE.

                                 <F-dash>
 Prepared Statement of Lucinda Barth, Sergeant, MN Army National Guard 
         Operation Iraqi Freedom and Operation Enduring Freedom
    Thank you for this opportunity to testify on behalf of Veterans 
from the surrounding area. I take great pride in representing them here 
today as I testify in front of the Veterans Affairs Subcommittee.
    My name is Lucinda Barth. I am a Sergeant in the Minnesota National 
Guard and a veteran of Operation Iraqi Freedom and Operation Enduring 
Freedom. I am also a service-connected disabled veteran.
    It is approximately 140 miles to the Veterans Affairs national 
cemetery located at Fort Snelling in Minneapolis, Minnesota. The state 
veterans' cemetery located in Little Falls, Minnesota is 236 miles. 
These cemeteries are a great distance to travel for a veteran that 
would like to be interred in a Veterans' cemetery. Not to mention the 
inconvenience a loved one would have to endure to visit the site of 
their loved one. I believe that if the Department of Veterans Affairs 
would approve the grant for this cemetery here in Fillmore County that 
the surrounding veterans and their families will want their loved ones 
memorialized at that cemetery.
    The number of veterans in the Minnesota, Iowa, and Wisconsin area 
that this cemetery would serve is well over 43,000 veterans; each and 
every one of these veterans deserve to have the right to choose to be 
interred in veteran cemetery within a reasonable distance from their 
loved ones. This cemetery will give those veterans and their families 
the opportunity they didn't think was possible before.
    I have traveled the world and seen some beautiful places; none of 
it compares to the beauty that we have right here in Fillmore County, 
in Preston. It's not only beautiful but it's serene; I believe that 
this is an ideal location for a cemetery where we want our veterans' 
families to feel that their loved one is at peace.
    I have been told on several occasions that it takes a special kind 
of person to join the Armed Forces to fight for this country. Whether 
they were told to join during the Vietnam era or joined when it became 
an all volunteer military; we are all still that special kind of 
person. Preston would provide that special final resting place that 
those veterans so honorably deserve to have.
    I strongly encourage for you to go back to Washington DC and vote 
in favor for Fillmore County to be the final resting place for so many 
veterans in the surrounding area. They deserve to have a place that 
will bring them and their families the peace that they need after the 
loss of a dear loved one. I know that Preston can bring that peace to 
so many families.
    Again thank you for this wonderful opportunity to voice my opinion 
on this 
matter.

                                 <F-dash>
   Prepared Statement of Nathan Pike, County Veteran Service Officer 
                             Olmsted County
    First off, I would like to thank the Subcommittee for the 
opportunity to testify on behalf of over twenty-three thousand veterans 
and their families of southeast Minnesota which includes the following 
eight counties: Fillmore, Olmsted, Mower, Dodge, Goodhue, Wabasha, 
Winona and Houston. This is an excellent opportunity to testify on the 
important issues of gaining a veterans cemetery in Fillmore County.
    My name is Nathan D. Pike. I am a veteran of the active Army and a 
retired Minnesota Army National Guard non-commissioned officer with 
over twenty-one years of service. I served two tours of duty in support 
of the KFOR operations in Kosovo and a tour as an embedded trainer to 
the Afghan National Army in 2005. I am also a service-connected 
disabled veteran.
    In the spring of 2010 I applied and received the job of Fillmore 
County Veteran Service Officer. In the summer of 2011 I started the 
position of County Veteran Service Officer in Olmsted County. I am a 
current resident of Fillmore County residing in Spring Valley. As a 
CVSO my job is to provide assistance to local veterans and their 
families with Department of Veterans Affairs benefits, state veteran 
benefits and anything remotely related to veteran issues and concerns 
for the veterans and their families of Olmsted County, Minnesota.
    My first point I would like to address; it is my belief and that of 
many other veterans, that the Department of Veterans Affairs holds the 
responsibility of caring for the servicemember upon discharge (veteran) 
to grave, and if need be, assisting the surviving widow/widower with 
benefits should they (surviving family members) be eligible for said VA 
benefits. The VA can easily serve the veterans of southeast Minnesota 
with a veteran's cemetery to be specifically located in Fillmore 
County. The Fillmore County Board of Commissioners has graciously 
authorized the donation of land for this project. The excellent support 
is evident within the veteran service organizations of Fillmore County 
which includes the Fillmore County Council of the American Legion (the 
oldest Legion county council in the Nation) as well as unanimous 
support from the people and towns of Fillmore County. Even southeast 
Minnesota's largest print media Rochester Post Bulletin has endorsed 
the idea of a veteran's cemetery in Fillmore County. Providing a 
veterans cemetery in Fillmore County has the potential of serving over 
23,626 veterans and eligible family members for the benefit of burial 
in a veteran cemetery. I researched the number of veterans from the 
American Community Survey from 2010 which provided the current and most 
relevant data that I could find concerning veteran population in 
southeast Minnesota. The Committee should also take into account that 
even with the Iraq War done there will be more veterans returning to 
southeast Minnesota; most notably the return of Minnesota's Army 
National Guard First Brigade of the 34th ``Red Bull'' Infantry Division 
from their deployment in Iraq and Kuwait making the returning soldiers 
to be considered as veterans. Between the eight counties of southeast 
Minnesota that I have mentioned, there are two Infantry companies and 
two support companies all of the Minnesota Army National Guard, and 
Reserve units which has two company sized units in the Rochester area.
    The second point for a veterans' cemetery in Fillmore County that 
should be addressed is that there is an opportunity for work through 
the construction process of said cemetery which in turn would provide 
some economic stimulus to Fillmore County. Whether the work is provided 
through local contractors or otherwise there will be a need for the 
workers to have access to local businesses for a variety of needs. 
After the cemetery is completed there would be the added benefit of 
jobs provided by having an active cemetery that could possibly employ 
up to a dozen people. A good, economic, unintended consequence with the 
addition of the cemetery there will be the many visitors that would be 
expected to visit during special holidays such as Memorial Day, 
Independence Day and Veterans Day. The visitors in turn would spend 
money in the local economy as they are travelling through Fillmore 
County.
    Here are my final thoughts to reiterate my two my points of why a 
veteran's cemetery in Fillmore County, Minnesota, the first is that the 
Department of Veterans Affairs has the responsibility of caring for 
veterans and their families from discharge to death. The veterans' 
cemetery would well be suited for a final resting place for our 
Nation's veterans. The land is free and there would be economic 
stimulus to a rural county that is need of such stimulus. I can tell 
that while working as the Fillmore County veteran service officer I 
knew of three families that are patiently waiting for the creation of 
the proposed site so they can bury the cremated remains of the veteran 
loved ones; and finally the veteran cemetery is in my own end-of-life 
plans for a final resting place.
    Again thank you for this opportunity to discuss the important issue 
of a veterans' cemetery for Fillmore County, Minnesota.
    If you have any questions I will kindly answer them.

                                 <F-dash>
   Prepared Statement of Chuck Amunrud, Commissioner, Fillmore County
    I FIRST WANT TO SAY THANK YOU TO THE COMMITTEE FOR TAKING TIME TO 
COME TO OUR BEAUTIFUL FILLMORE COUNTY. IT IS INDEED AN HONOR TO BE 
INVITED TO TESTIFY ON BEHALF OF FILLMORE COUNTY.
    MY NAME IS CHARLES (CHUCK) AMUNRUD AND I AM A FILLMORE COUNTY 
COMMISSIONER REPRESENTING THE THIRD DISTRICT.
    I AM ALSO A 60 percent DISABLED VETERAN. ENLISTING IN THE UNITED 
STATES AIR FORCE FROM 1968 TO 1972.
    MY STATEMENT WILL MENTION THE LOCAL COLLABORATIVE EFFORTS OF OUR 
STATE LEGISLATURE, THE STATE DEPARTMENT OF VETERANS AFFAIRS, THE 
FILLMORE COUNTY BOARD, AND OUR LOCAL VETERANS GROUPS. REASONS FOR 
FILLMORE COUNTIES BOARD DECISION TO DONATE LAND FOR A VETERANS 
CEMETERY.
    THE BOARD WAS APPROACHED IN 2009 BY OUR THEN STATE SENATOR SHARON 
ERICKSON-ROPES, WHO AT THAT TIME SERVED ON THE STATE SENATE VETERANS 
COMMITTEE. WANTING TO FIND LAND THAT WOULD BE SUITABLE FOR A NEW 
VETERANS CEMETERY IN THE SOUTH EAST PART OF OUR STATE. THE FILLMORE 
COUNTY BOARD SUGGESTED THAT THEY WOULD CONSIDER GIVING UP A PORTION OF 
LAND, THE COUNTY OWNED NEXT TO PRESTON THAT CONSISTED OF APPROXIMATELY 
245 ACRES.
    IN NOVEMBER 2009, THE THEN CURRENT STATE COMMISSIONER OF VETERANS 
AFFAIRS MICHAEL PUGLIESI AND STAFF VISITED THE FILLMORE COUNTY BOARD TO 
DISCUSS THE POSSIBILITY THAT OUR PROPOSED SITE COULD BE SUITABLE. AND 
THE NEED TO DO PRELIMINARY WORK ON THE SITE. WE DISCUSSED THE NEED TO 
AMEND THEN THE CURRENT STATE STATUTE. THE STATUTE HAD SET ASIDE FUNDING 
TO ACQUIRE LAND AND DESIGN FOR TWO NEW CEMETERIES IN SOUTHWEST AND 
NORTHEAST MINNESOTA. WE NOW NEEDED THE STATE LEGISLATURE TO AMEND THE 
LAW TO INCLUDE SOUTHEAST MINNESOTA FOR LAND ACQUISITION AND DESIGN.
    DURING THE 2010 SESSION, STATE HOUSE REPRESENTATIVE GREG DAVIDS WHO 
STILL REPRESENTS OUR DISTRICT AND THE THEN STATE SENATOR SHARON 
ERICKSON-ROPES BOTH WERE CRUCIAL IN GETTING THE LAW CHANGED TO INCLUDE 
SOUTHEAST MINNESOTA.
    DURING THIS TIME FRAME THE FILLMORE COUNTY BOARD WAS VISITED BY OUR 
LOCAL VETERANS GROUPS WHO PRESENTED RESOLUTIONS OF SUPPORT URGING US TO 
GIFT THE LAND NEEDED AS A WAY OF PAYING HONOR TO VETERANS FROM OUR 
CITIZENS. THE BOARD AGREED.
    WE THEN LEARNED THAT WE WERE NOT DONE AT THE STATE LEGISLATURE. THE 
NEW LAW WOULD AGAIN NEED TO BE AMENDED TO INCLUDE SOUTHEAST MINNESOTA 
DUE TO LANGUAGE IN THE ORIGINAL LAW AS PART OF A BONDING BILL.
    IN 2011 OUR NEW STATE SENATOR JEREMY MILLER ALONG WITH STATE HOUSE 
REPRESENTATIVE GREG DAVIDS PROPOSED LEGISLATION THAT PASSED INTO LAW 
MAKING FILLMORE COUNTY A PRIORITY IN FUNDING FOR DESIGN TO CONSTRUCT A 
NEW STATE VETERANS CEMETERY. OUR ENTIRE REGION IS IN SUPPORT KNOWING 
THAT FAMILIES WILL BENEFIT FROM HAVING THEIR LOVED ONES BURIED CLOSER 
TO HOME. NEW JOBS DUE TO CONSTRUCTION AND THE ONGOING OPERATIONS WILL 
HAVE A LONG TERM BENEFIT TO OUR LOCAL COMMUNITIES.
    I WANT TO THANK THE SUBCOMMITTEE ON DISABILITY ASSISTANCE AND 
MEMORIAL AFFAIRS, THE MINNESOTA LEGISLATURE, THE MINNESOTA DEPARTMENT 
OF VETERANS AFFAIRS, TO MY FELLOW COUNTY BOARD MEMBERS IN A VERY 
POSITIVE COLLABORATIVE EFFORT TO BENEFIT OUR PAST CURRENT AND FUTURE 
VETERANS.
    I WILL DO MY BEST TO ANSWER ANY QUESTIONS.

                                 <F-dash>
 Prepared Statement of Karen Brown, County Coordinator, Fillmore County
    Good afternoon distinguished Members of the House Committee on 
Veterans' Affairs, Subcommittee on Disability Assistance and Memorial 
Affairs. Fillmore County is honored to have all of you in our community 
today and welcome you to our county.
    My name is Karen Brown and I serve as the Fillmore County 
Coordinator. Part of my position description is to serve as clerk of 
the Board of County Commissioners. Since this is a special project for 
the Board, I have supported their efforts in working with all parties 
that have contributed effort and expertise related to this project for 
a successful collaboration.
    The grant process began in Fillmore County following a directive 
from the 2008 MN Legislative Session to identify any potential site for 
new State Veteran Cemeteries in southern Minnesota. Subsequently a 
document was produced by Mr. David P. Swantek, Cemetery Director, MN 
State Veterans Cemetery, of Little Falls, which identified an 
``underserved veteran population in southeast Minnesota''. This report 
was presented to the Board in 2010. The Fillmore County Board of 
Commissioners began having conversations about a possible transfer of 
county owned land known as the ``County Farm'' for use as a veterans' 
cemetery. This incredibly beautiful proposed site features scenic bluff 
lands, gentle valleys and the Root River and would seem to be a perfect 
use for this land. Including populations of veterans in Iowa and 
Wisconsin, an estimated total of 40,000 veterans live within 75 miles 
of this proposed site.
    After conversations where the land transfer was considered by the 
Board, the next step in the local process was to assess the wishes of 
the people in Fillmore County. With land values increasing, the members 
of the Board wanted to make sure that there was support before any 
transfer decisions were made. All veteran service groups and 
municipalities in the county were contacted and asked about their 
opinions about the cemetery. The result was unanimous: Fillmore County 
veteran organizations and city officials whole heartedly supported the 
proposal with thirty (30) resolutions of support on file. In addition, 
community support has been great--commissioners have not heard 
opposition to this project.
    In February of 2010, the consensus of the Fillmore County Board of 
Commissioners was to begin the process to move toward the transfer of 
land to be used for a veterans' cemetery. The 2011 legislature, in 
special session, enacted legislation that supported the proposal. 
Further, the legislation included language asking for a priority 
designation by the Commissioner since the land was proposed to be 
donated by Fillmore County for a veterans' cemetery in southeast 
Minnesota. Following that legislation, collaborative discussions have 
occurred with all levels of government, countless documents have been 
submitted, field assessments have been completed, and land records have 
been reviewed in preparation for cemetery site approval.
    Throughout the process, all of those involved have been very 
cooperative in providing support for the project. The County Board made 
the land available and municipalities supported the donation. MN 
Veterans Affairs officials have been most helpful in answering our 
questions and by providing information. Our MN Senators and 
Representatives have passed the enabling legislation and are aware of 
the State's on-going responsibilities for a veterans' cemetery in 
Fillmore County. Last but not least, Federal officials have been 
essential in this partnership of governments by funding the Veterans 
Cemetery Grants Program.
    The keys to an effective process seem to be the following:

    <bullet>  Willingness for the local elected officials on the 
Fillmore County Board to donate a significant amount of land to make 
the proposal more desirable for a better priority designation
    <bullet>  Willingness for local elected MN Representatives and 
Senators to carry and support legislation for the initial costs for 
assessment and evaluation of the site
    <bullet>  Willingness of State of MN agencies to work together in a 
cooperative manner to come to agreement to finalize the transaction
    <bullet>  Willingness of the Federal Government to provide grant 
funding to finance the construction of the cemetery, and
    <bullet>  Willingness of the State of MN to fund the on-going 
operation/maintenance of the cemetery

    If I might end on a personal note, I would like to add that I have 
been married to a Viet Nam veteran for 42 years in March. Much has 
changed for the better for veterans since my husband was discharged 
from the Navy in 1969. As you know Viet Nam was an unpopular war so 
there were very few thank you comments when he returned.
    Today due to national efforts by the Veterans' Affairs and other 
veterans' advocacy groups to promote support of military personnel and 
veterans, all of that has changed. Veterans now returning from their 
tours of duty are welcomed back as heroes, as they should be. Now there 
are often big welcome home events with bands playing, veteran groups at 
the airport, families and friends waving flags and the media capturing 
it all for the evening news. That is a good thing and a tribute to the 
VA and the American people to recognize a job well done.
    In closing, I would like to say that I feel the national grant 
process works well and if we are successful, this cemetery will benefit 
our County for many years and in many ways. This collaborative effort 
is the ultimate thank you to our military personnel to provide them 
with a final resting place that is near their families and friends and 
will forever acknowledge their service to our country.
    Thank you for your attention and I would be happy to answer any 
questions that you might have.

                                 <F-dash>
 Prepared Statement of Jon Martin, Solid Waste Administrator, Fillmore 
                                 County
    Good afternoon. Thank you for inviting me to speak to you on the 
importance of a veteran's cemetery in Fillmore County and to give you 
some background on the land that Fillmore County is in the process of 
donating for this purpose.
    Let me start by expressing my desire for this cemetery to become a 
reality in the very near future. This is an asset that is needed for 
the veterans in the southeast corner of Minnesota and also the veterans 
in Iowa and Wisconsin. With the travel time to either Minneapolis or 
Little Falls, the time it takes to register and walk to the grave site 
and then pay your respects, it may take most of the day. This process 
can be very exhausting and may be a cause for them not visiting as much 
as they would like.
    Now some basic information on me. I started With Fillmore County in 
January of 1996 as a Transfer Station Attendant and held that job for a 
little over 2 years. In 1998, I was appointed to my present position of 
Solid Waste Administrator/Resource Recovery Center Manager by the 
Fillmore County Board of Commissioners.
    Over the course of my employment with Fillmore County, I have been 
involved with the land called the Fillmore County Farm. This is a piece 
of property that had a couple of old farmsteads on it that were 
combined into one parcel. This property was purchased by Fillmore 
County to build a transfer station when the only solid waste landfill 
in the county closed. Over the course of years, a building was built to 
house the Source Separated Composting Facility and the Recycling 
Center. Later on, a new building was built with state grant money to 
allow the composting operation to be moved under cover and produce a 
better finished material. A Household Hazardous Waste building was 
added to allow for the collection, sorting, packaging and shipping of 
hazardous waste to a licensed shipper for proper disposal. Composting 
was discontinued in year 2000 due to a number of reasons, and the 
recycling center was changed to a single stream collection system where 
recyclables are shipped out for processing and marketing. The recycling 
center and the composting building have now been repurposed for use by 
the Fillmore County Highway Department for a maintenance shop and a 
sand and salt shed.
    Fillmore County was involved in a program in the early 1990's that 
required the planting of trees on some of the farmland. Fillmore County 
planted a mix of red and white pines and some walnut trees. These areas 
have now grown into beautiful spots to walk through and area haven for 
all kinds of wildlife.
    Speaking of wildlife, Fillmore County allowed hunting on the farm 
up until last year. With the cemetery moving forward and the need for 
soil borings, the artifact discovery process, wetland surveying, and 
the need for people to be there doing their jobs, Fillmore County 
decided to close the farm to hunting. Many, many people used the farm 
for hunting. Some drove a long way because there was not land available 
for them to hunt on near home. Every fall, I would have a list of 30-40 
people that would ask to hunt there. Everyone was supposed to ask 
permission to hunt and were given a list of rules to follow. This 
worked out well for the most part. When Fillmore County decided to 
close the farm to hunting, very few people were upset when I told them 
the reason for closing it was to facilitate the process of getting a 
veteran's cemetery here.
    In closing, I would like to reinforce to you the support that I 
have received by hunters that used the farm, hikers that enjoyed walks 
through it, people that use the transfer station and the recycling 
facility, fishermen and boaters that use the river, and the many people 
and veterans that I talk to on a daily basis that want to make this 
veteran's cemetery a reality in Fillmore County.
    Thank you for your time and your consideration for this project.
    Do you have any questions for me?

                                 <F-dash>
     Prepared Statement of Hon. Jeremy Miller, Senator, Minnesota 
                              Legislature
    I would like to begin by thanking the House Committee on Veterans' 
Affairs for holding a public hearing in Preston, Minnesota, regarding 
the National Veterans Cemetery in Fillmore County.
    Over the past couple years it has been my honor to work closely 
with Representative Greg Davids, local officials from Fillmore County, 
local veterans organizations, the Minnesota Department of Veterans 
Affairs and several others to designate Fillmore County in southeastern 
Minnesota as a location for a new veterans cemetery.
    The many veterans in our populations have created the need for 
additional cemetery space, and the National Cemetery Association 
concluded in 2008 that southern Minnesota was outside a recommended 75-
mile service area for the state's two existing veterans cemeteries, at 
Fort Snelling in Minneapolis and in Little Falls in central Minnesota.
    More than 30,000 veterans live within 50 miles of this site, and it 
will mean a tremendous amount to them and their families to know that 
this nearby spot will be their final resting place. I am proud to be 
part of honoring our veterans in this way.
    Again, I would like to extend my most sincere thanks to the House 
Committee on Veterans' Affairs for holding this public hearing and all 
who have been involved in helping us make the tremendous progress to 
get to where we are today.

                                 <F-dash>
   Prepared Statement of David Swantek, Cemetery Director, Minnesota 
                     Department of Veterans Affairs
    Chairman Runyan and Congressman Walz:
    It is a tremendous honor to be before you today in Preston MN for 
this hearing: ``Honoring our Nation's Veterans: Examining the Veterans 
Cemetery Grants Program''.
    150 years ago, President Abraham Lincoln promised a war torn nation 
that those that had borne the battle would be honored and not 
forgotten. A system of National Cemeteries was the product of that 
promise. These national shrines remain today, a daily reminder to the 
tremendous cost of freedom and democracy which we as American citizens 
have enjoyed since 1776.
    It has been my deep privilege for the past 20 years to work with 
the families of American Heroes, our veterans, during their greatest 
times of need. As a cemetery caretaker at the Oregon Trail State 
Veterans Cemetery in my home state of Wyoming and for the past 16 years 
as the Director of the Minnesota State Veterans Cemetery in Little 
Falls, MN I have been a direct witness on a daily basis to the profound 
gratitude that veterans families experience knowing their loved ones 
rest with honor in perpetuity next to their Comrades in Arms. The State 
of Minnesota is proud to provide this honor to those who seek our 
services and we are committed to expanding access to this earned 
benefit throughout our great State.
AUTHORIZING LEGISLATION
    In 1985, the Minnesota State Legislature passed legislation 
authorizing a State Veterans Cemetery in Minnesota. The location was 
undetermined and the State had no formal plans to construct a State 
Veterans Cemetery. In 1986, two WWII veterans from central Minnesota 
discovered the authorizing legislation from the previous year and were 
determined to have a State Veterans Cemetery constructed in central 
Minnesota. As members of a local DAV Chapter, these veterans identified 
a parcel of property, raised the funds necessary to purchase the 
property and donated the site to the State of Minnesota to be used for 
a new State Veterans Cemetery. Due to a lack of development funds, the 
State of Minnesota did not pursue development of a cemetery and instead 
returned the donated land back to the local DAV Chapter in 1989. 
Undeterred, this local group of veterans organized an association and 
began soliciting development funds from Veterans Service Organizations, 
local businesses and individual donors. This group of dedicated 
veterans built a ground swell of support in the Legislature and 
ultimately with former Governor Arne Carlson. Governor Carlson signed 
into law the establishment of the Minnesota State Veterans Cemetery and 
the State would once again take ownership of the site near Little Falls 
on September 1, 1994.
    Outside the control of the State, a decision was made in the summer 
of 1994 to start burying veterans on-site in Little Falls prior to the 
State taking ownership of the cemetery property. While understandable 
from the perspective of a dedicated group of veterans who had years 
earlier witnessed their donation of property to the State produce no 
cemetery, this decision was detrimental to the early development of a 
State Veterans Cemetery in Little Falls.
VETERANS CEMETERY GRANT
    Even though the State of Minnesota had inherited an operational 
State Veterans Cemetery in the fall of 1994 and resources originally 
intended for development of a new cemetery had to be redirected towards 
operational needs, plans moved forward to seek financial assistance 
from the National Cemetery Administration (NCA) for development of the 
Little Falls cemetery.
    In 1995, the State of Minnesota was awarded its first grant from 
NCA. At that time the grant program was a 50 percent matching grant, 
requiring the State to provide 50 percent of the costs for 
construction.
    In 1999, Congress authorized NCA to begin providing up to 100 
percent of the development costs to construct, expand or improve State 
Veterans Cemeteries and the State of Minnesota applied for a second 
grant from NCA in 2001 for our cemetery in Little Falls. This project 
provided for the major development that had been badly needed since 
1994 and constructed the major infrastructure that has allowed our 
cemetery in Little Falls to become what it is today. Last July the 
cemetery in Little Falls was recognized by the Veterans Cemetery Grants 
Program for ``Excellence of Appearance''. Only 4 of the 86 State 
Veterans Cemeteries in operation have been honored with this award. I 
am especially proud of this recognition given our humble beginnings and 
the difficult circumstances under which the cemetery in Little Falls 
was established.
EXPANDING AN EARNED BENEFIT
    In 2007, Governor Tim Pawlenty, announced as part of his veterans 
initiatives for the upcoming Legislative session, that the State would 
construct a new State Veterans Cemetery in northeastern Minnesota near 
Duluth. A grant pre-application was submitted to the Veterans Cemetery 
Grants Program for construction of a new State Veterans Cemetery and a 
search for suitable cemetery property began.
    During the 2008 Legislative session it was necessary to amend the 
authorizing Legislation from 1985 to allow the State to operate more 
than one State Veterans Cemetery. The proposed expansion of the State's 
Veterans Cemetery program was supported in both the State House and 
State Senate. The veterans committee in the State Senate asked for a 
report on other potential locations, particularly in southern 
Minnesota, for a new State Veterans Cemetery.
    In 2009, we reported to the veterans committee that locations in 
both southwestern and southeastern Minnesota had veteran populations 
that would support the construction of new State Veterans Cemeteries. 
By the end of the 2009 Legislative session, the MN Department of 
Veterans Affairs (MDVA), was successful in securing a $1.5M 
appropriation to be used for the design of two new State Veterans 
Cemeteries in northeastern MN and southwestern MN. Following the 
session a pre-application for construction of a second new State 
Veterans Cemetery in southwestern MN was submitted to the Veterans 
Cemetery Grants Program. During this time we continued to search for 
suitable property in both northeastern and southwestern Minnesota. We 
worked with our State's Department of Natural Resources, local county 
government officials in both regions and potential private land donors. 
Though we have had several leads and viewed multiple properties, 
suitable cemetery sites have proved difficult to find.
MOTIVATED LOCAL PARTNER
    In 2010, MDVA was asked to present information to the Fillmore 
County Commissioners on the potential for a new State Veterans Cemetery 
in southeastern MN. The requirements of a suitable site for 
constructing a State Veterans Cemetery were discussed and Fillmore 
County expressed their interest in donating property to the State for 
the construction of a cemetery. While MDVA was interested in the offer 
from Fillmore County, the Legislature had not authorized a new State 
Veterans Cemetery in southeastern MN. During the summer of 2010 the 
Fillmore County Commissioners and County Administrator visited our 
current State Veterans Cemetery in Little Falls. The visit provided an 
opportunity for the County to see how a State Veterans Cemetery 
operates and what a new cemetery in Fillmore County could mean for 
veterans in southeastern MN. I believe that visit solidified the 
County's commitment to doing everything possible to make a new State 
Veterans Cemetery in Fillmore County a reality.
    In 2011, MDVA successfully worked with Representative Greg Davids 
and Senator Jeremy Miller to once again amend authorizing Legislation 
to allow the Department to pursue construction of a new State Veterans 
Cemetery in southeastern MN, along with a creative fiscal amendment 
providing for cemetery design without the requirement for any 
additional appropriated funds. After passage of this Legislation, in 
the summer of 2011, MDVA submitted a third pre-application for the 
construction of a new State Veterans Cemetery to the Veterans Cemetery 
Grants Program.
    Today I'm happy to report that significant site suitability 
assessment including environmental and cultural assessment, soil 
borings and grading analysis has been completed and the proposed 
property appears to meet the suitability requirements for constructing 
a new State Veterans Cemetery.
CONCLUSION
    Since 1994, when the State of Minnesota committed to provide our 
Nation's Heroes with a final resting place which commemorates and 
honors their sacrifice and service to our country, we have found 
inspired partners and supporters at every turn. From the two central 
Minnesota WWII veterans who wanted to see a State Veterans Cemetery 
built in the State of Minnesota and spent years raising funds and 
soliciting local and political support, to Members of Congress at the 
end of the last century who changed Federal law to allow NCA to provide 
States with the construction funding necessary to construct, expand or 
improve State Veterans Cemeteries in sparsely populated locations in 
rural America, to state legislators in Minnesota whose support of 
veterans issues across our State positively impacts the lives of our 
veterans, to the National Cemetery Administration whose support of 
State Veterans Cemeteries provides veterans with a burial option close 
to their homes, and local governments like Fillmore County who have the 
commitment and determination to do all they can to provide their part 
in continuing the promise made by President Lincoln 150 years ago.
    Because of this cooperation, from Federal, State and Local partners 
I am confident that in the near future, we will gather again to 
dedicate a new national shrine in Fillmore County honoring our American 
Heroes.

                                 <F-dash>
 Prepared Statement of Glenn Powers, Deputy Under Secretary for Field 
Programs, National Cemetery Administration, U.S. Department of Veterans 
                                Affairs
    Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to testify today on the critical 
contribution of the Veterans Cemetery Grants Program (VCGP) to the 
mission of the Department of Veterans Affairs (VA) National Cemetery 
Administration (NCA). I know that meeting the burial needs of veterans 
and their families is an issue of great interest to Minnesota veterans.
Ensuring Access to a Burial Option for our Veterans
    NCA's statutory mission under title 38, United States Code, is to 
provide burial and memorialization for eligible veterans and their 
eligible spouses and dependents, and to maintain those places of burial 
as national shrines. VA considers reasonable access to a burial option 
to mean that a first interment option (whether for casketed remains or 
cremated remains, either in-ground or in columbaria) in a national, 
State, or Tribal veterans cemetery is available within 75 miles of the 
veteran's place of residence.
    To provide this level of access to our Nation's veterans, VA 
administers a nationwide system of 131 national cemeteries in 39 States 
and Puerto Rico, as well as 33 soldiers' lots and monument sites. In 
Minneapolis, Minnesota, VA operates Ft. Snelling National Cemetery, 
which is one of VA's most active cemeteries.
    In addition to the federally-administered nationwide system, VA 
administers the Veterans Cemetery Grants Program (VCGP), which 
establishes a critical partnership by awarding grant funds to States 
and Tribes to provide a burial option to our Nation's veterans. The 
program, established in 1978 by Congress under Public Law 95-476, 
awards grants for cemetery projects to serve the needs of veterans 
unlikely to be served by an existing national cemetery. VA may fund up 
to 100 percent of development costs for projects to establish, expand, 
improve and maintain a State, Tribal or U.S. Territory veterans 
cemetery. These federally-funded cemeteries must operate solely for the 
interment of eligible veterans and their eligible spouses and 
dependents, and they are required to conform to VA-prescribed standards 
and guidelines for site selection, planning, construction, appearance, 
and operations.
    Since 1978, VCGP has awarded over 275 grants, totaling more than 
$482 million to establish, expand or improve 86 veterans cemeteries in 
41 States, Guam, and Saipan. In Fiscal Year (FY) 2011, these cemeteries 
conducted 29,491 burials for veterans and family members, representing 
about 20 percent of all veteran cemetery burials in the United States.
Administration of the Veteran Cemetery Grant Program
    The VCGP grant processes and implementing regulations are designed 
to ensure fair and equitable grant administration to benefit the 
greatest number of veterans. In order for VA to give the highest 
consideration to a pre-application, and before a project may be awarded 
a grant, the State or Tribal Organization must pass legislation 
authorizing the project and providing the necessary architectural/
engineering (A/E) funds to allow the project to be developed. One 
hundred percent of allowable A/E costs will be reimbursed following 
grant award. This legislation and funding action will ensure that the 
pre-application receives the highest ``Priority List'' ranking. 
Annually, VCGP uses veteran population data, confirmation of 
legislation and funding action, as well as the grant type to prioritize 
completed applications into a ``Priority List.'' VA categorizes each 
application in one of four priority groups:

    <bullet>  Priority 1 projects are gravesite expansion or 
improvement projects that are needed to continue service at an existing 
veterans cemetery that will deplete available gravesites within 4 
years. This includes phased development of currently undeveloped land.
    <bullet>  Priority 2 projects are new cemetery establishment 
projects.
    <bullet>  Priority 3 projects are planned phased gravesite 
development projects that will deplete available gravesites after 4 
years.
    <bullet>  Priority 4 projects are for other improvements to 
cemetery infrastructure, such as building expansion and upgrades to 
roads and irrigation systems that are not directly related to the 
development of new gravesites. This includes operation and maintenance 
projects that address NCA's national shrine standards of appearance.

    This simple and open process ensures that grants are provided to 
fund projects that will improve or maintain access to a burial option.
    As Congress appropriates the VCGP budget on an annual basis, grant 
opportunity letters are sent by VA for all projects on the ``Priority 
List'' that are above the approved budget line. Once a State or Tribe 
receives an opportunity letter, it has until the fourth quarter of that 
same fiscal year to complete all necessary planning work (design/
architectural and engineering), receive vendor bid tabulations, and 
complete the remaining grant application documentation. Upon successful 
completion of these process steps, VA officially approves the grant 
award and work can begin immediately. VCGP continually monitors 
construction progress, with Federal grant funds reimbursed consistent 
with the progress of the project.
State of Minnesota VCGP Grants/Applications
    VCGP awarded grant funding totaling $3.9 million to the State of 
Minnesota in 1995 and 2002 for the large scale expansion of the 
Minnesota State Veterans Cemetery in Little Falls. This cemetery has 
provided a burial option for nearly 4,000 veterans and their families 
since it was established in 1994.
    Currently, the State of Minnesota has four different grant 
applications ranked at various positions on the FY 2012 Priority List. 
The first application (MN-11-06) would provide a grant to expand and 
improve the Minnesota State Veterans Cemetery in Little Falls. 
Minnesota has three additional applications to establish new veterans 
cemeteries in South East (Fillmore County) (MN-10-05), Redwood County 
(MN-09-04), and in Duluth (St. Louis County) (MN-08-03).
    Of the three establishment grant applications on the FY 2012 
``Priority List,'' Minnesota initially opted to defer the Redwood 
County and Duluth (St. Louis County) applications, as land has not been 
acquired. States, Territories and Tribal governments are solely 
responsible for acquisition of the necessary land. The South East 
(Fillmore County) grant application would establish a new veterans 
cemetery for over 50,000 unserved veterans. The proposed site is 
approximately 155 acres. In February 2012, Minnesota deferred its 
application to allow Fillmore County to resolve title issues associated 
with the site. The application will be included on the FY 2013 
``Priority List'', and once all issues are resolved, the application 
can be considered for a grant award, as determined by the approved 
budget and per the processes outlined above.
Recent Developments in VCGP Service to Veterans
    VA appreciates Congress' continued interest in the Veteran Cemetery 
Grant Program--both through annual budgetary support and recent 
statutory changes that further enhance VCGP's ability to support VA's 
mission to serve veterans. Under Public Law 109-461, VCGP may now 
administer grants to Tribal Organizations in the same manner and under 
the same conditions as grants to States. Since last fall, VA has 
awarded three grants for the establishment of Tribal veterans 
cemeteries on Tribal lands. Recipients were the Rosebud Sioux Tribe in 
South Dakota, the Yurok Tribe in California, and the Pascua Yaqui Tribe 
in Arizona. Additional Tribal governments have submitted applications 
for consideration in FY 2012. Under additional provisions of Public Law 
110-157, VA may now offer operating grants to assist States and Tribes 
to achieve and maintain standards of appearance commensurate with 
national cemetery shrine status.
    Thank you, again, for the opportunity to share an overview of VA's 
Veteran Cemetery Grants Program--an expanding partnership between VA 
and State and Tribal governments which is critical to ensuring veterans 
have access to the benefits and services they have earned through their 
service and sacrifice. NCA's partnership with individual State 
departments and directors continues to grow--and grow stronger. Nearly 
25 State Veteran Cemetery directors attended NCA's annual training 
event in Nashville, Tennessee last week, including the Director of the 
Minnesota State Veterans Cemetery in Little Falls.
    I look forward to working with the members of this Subcommittee as 
we jointly meet the burial needs of the veterans we are entrusted to 
serve. I would be pleased to answer any questions.
                   MATERIAL SUBMITTED FOR THE RECORD
  Prepared Statement of The Hon. Gregory Davids, Speaker Pro Tempore, 
                         Minnesota Legislature
    As the Chair of the Minnesota House of Representatives Taxes 
Committee, and chief author of H.F. 226 that authorizes the planning of 
this cemetery, I would like to thank the House Committee on Veterans' 
Affairs Subcommittee on Disability Assistance and Memorial Affairs for 
holding a public hearing in Preston, Minnesota regarding the National 
Veterans Cemetery in Fillmore County. I am looking forward to hearing 
your findings as you explore the grant process.
    The veterans' cemetery in Fillmore County will fill a great need 
for our veterans and their families who have so selflessly served our 
great country. This cemetery will serve not only south eastern 
Minnesota, but northern Iowa, and western Wisconsin.
    I would like to thank the Fillmore County Commissioners for their 
tremendous support of this cemetery and for their generous donation of 
the beautiful property that will serve those who have served our 
country. A special thank you goes to all the veterans' organizations 
and area cities for their strong support.
    I would also like to thank Senator Jeremy Miller and former Senator 
Sharon Ropes for their tireless efforts to see this project come to 
reality. I am attending my daughter's graduation ceremony at Baylor 
University in Waco, Texas, and I regret that I am unable to attend this 
hearing. I will continue to make every effort to see this project 
through until the end.

            As Always Yours,
                                                       Your Friend,
                                                  Gregory M. Davids

                                 <all>

</pre></body></html>
